<html>
<title> - CONFRONTING THREATS TO SECURITY IN THE AMERICAS</title>
<body><pre>[Senate Hearing 106-234]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-234
 
             CONFRONTING THREATS TO SECURITY IN THE AMERICAS

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON WESTERN HEMISPHERE,
                  PEACE CORPS, NARCOTICS AND TERRORISM

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 22, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                      U.S. GOVERNMENT PRINTING OFFICE
60-899 CC                     WASHINGTON : 1999



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                  SUBCOMMITTEE ON WESTERN HEMISPHERE,
                  PEACE CORPS, NARCOTICS AND TERRORISM

                   PAUL COVERDELL, Georgia, Chairman
JESSE HELMS, North Carolina          CHRISTOPHER J. DODD, Connecticut
RICHARD G. LUGAR, Indiana            BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Joseph R., Jr., prepared statement........................     3
Wilhelm, Gen. Charles E., U.S. Marine Corps, Commander in Chief, 
  United States Southern Command, Miami, FL......................     4
    Prepared statement of........................................     8
Responses of Gen. Charles E. Wilhelm to additional questions 
  submitted by Senator Jesse Helms...............................    22
Responses of Gen. Charles E. Wilhelm to additional questions 
  submitted by Senator Joseph R. Biden, Jr.......................    30

                                 (iii)

  


            CONFRONTING THREATS TO SECURITY IN THE AMERICAS

                              ----------                              


                         TUESDAY, JUNE 22, 1999

                           U.S. Senate,    
        Subcommittee on Western Hemisphere,
              Peace Corps, Narcotics and Terrorism,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m., in room SD-562, Dirksen 
Senate Office Building, Hon. Paul Coverdell (chairman of the 
subcommittee) presiding.
    Present: Senator Coverdell.
    Senator Coverdell. I am going to call this meeting of the 
Western Hemisphere Subcommittee of the Foreign Relations 
Committee to order and welcome Gen. Charles Wilhelm, Commander 
in Chief, United States Southern Command, Miami, Florida.
    General, if you would bear with me a minute, I am going to 
take a little more prerogative this morning on an opening 
statement than I normally would, but I want to get this in the 
record and then I will turn to you for your opening statement 
and we will take it from there. I do want to say how 
appreciative I am. I know this has been difficult for you to 
do, and we are very appreciative that you would make this time 
available this morning.
    The purpose of this hearing today is to examine what I 
consider to be very real threats to the security and stability 
of the hemisphere. I cannot remember another time in recent 
history when we have paid less attention to developments in our 
own hemisphere. The current administration has failed to engage 
the region on a consistent basis or to articulate and implement 
a coherent policy for the hemisphere. Most of our attention has 
been focused recently on the Balkans, the Middle East, China, 
North Korea, and rightly so. These places certainly demand our 
immediate attention, but we simply cannot afford to ignore 
serious developments in this hemisphere in our own back yard.
    In a hearing this subcommittee held several weeks ago, we 
discussed the notion that the United States is good at 
responding to crises, coups that actually change governments. 
It was asserted that we are not as good at preventing 
situations from reaching these crisis stages. And the reason 
why is we tend to ignore problems and neglect them until we 
must take action. We fail to engage in a regular, consistent 
manner, and this has been a standard foreign policy flaw of the 
current administration.
    I want to talk briefly about Panama, a subject which in my 
mind has been largely ignored. At the end of this year, almost 
one century of a strategic U.S. presence in Panama is scheduled 
to come to a close. If the schedule remains unchanged, by the 
end of the year the United States will hand off the Panama 
Canal to Panamanian authorities and will completely withdraw 
all military forces.
    The ramifications of this, as it relates to our ability to 
effectively fight the war on drugs and in relation to general 
security and stability in the region, are troubling. For years 
Panama has been at the heart of our drug interdiction efforts 
in the hemisphere. U.S. bases in Panama have provided secure 
staging for detection, monitoring, and intelligence collecting 
and have provided critical support to our Latin American 
neighbors through aerial reconnaissance and counternarcotics 
training.
    The administration's response to the withdrawal of the 
military from Panama has been to negotiate agreements for three 
forward operating locations, FOL's, in the region, with another 
one possibly to follow. While current events make the FOL 
concept a necessity, I have serious doubts. Among them is the 
cost of improving and updating infrastructure at the FOL's, 
which is estimated to be several hundred million dollars, money 
that has already been invested in Panama. In addition, the 
negotiated agreements for FOL's are short-term agreements. 
Long-term agreements may be more difficult to secure.
    I find it difficult to give up on U.S. military assets so 
strategically positioned. I do not understand why, as State 
Department officials have recently affirmed, the administration 
has not raised the issue of a continued U.S. troop presence 
with the Panamanian President-elect. She herself is on record 
as willing to negotiate some type of continued U.S. military 
presence.
    I am also concerned that we are leaving Panama without the 
ability to defend itself from certain destabilizing threats, 
such as incursions by Colombian guerrillas, narcotraffickers, 
and paramilitary forces.
    Less tangible, but no less important, is the fact that our 
presence in Panama represents America's strong commitment to 
cooperative security in the region. It also serves to reassure 
investors, and provides a visible deterrent to those in the 
hemisphere who would threaten U.S. interests.
    Now to Colombia. Nowhere has this administration's failure 
to consistently engage the hemisphere more apparent than in 
Colombia. Few seem to be taking notice that the situation there 
continues to deteriorate. Despite President Pastrana's well-
intentioned efforts at resolving the decades old conflict, the 
number of casualties of both combatants and civilians continues 
to rise. More than 38,000 Colombians have been killed in 30-
plus years of conflict, and according to the Department of 
State, more than 300,000 people were internally displaced last 
year alone. The administration's policy of neglect has 
contributed to the balkanization of Colombia.
    While the Pastrana Government continues to make concessions 
to the guerrillas, including ceding them control over large 
tracts of land in southern Colombia, the guerrillas have only 
increased their efforts to undermine peace and stability. Most 
recently members of the National Liberation Army, ELN, 
Colombia's second largest guerrilla group, hijacked a domestic 
flight with 41 people on board. This was followed by the 
kidnapping of more than 140 innocent civilians from a church in 
Cali, Colombia. While many of the hostages have since been 
freed, these shocking occurrences serve to further undermine 
the rule of law and erode any sense of stability that remains. 
This obviously cannot be allowed to continue.
    We know from General Serrano of the Colombian National 
Police, the guerrillas have tapped into the vast resources of 
the illicit drug industry. Estimates of guerrilla income from 
the drug trade reach as high as $1.5 billion. The result is a 
well-funded and well-armed guerrilla movement with little 
incentive to compromise against an underfunded and undermanned 
Colombian military.
    As we have seen, the conflict in Colombia also threatens 
peace and stability in neighboring countries. President Chavez 
of Venezuela has had to move troops to its western border with 
Colombia as a result. Recent reports indicate that increased 
fighting in northeast Colombia between paramilitaries and 
guerrillas has forced hundreds of innocent civilians across the 
border into Venezuela. Just over a week ago, 600 Colombian 
civilians from the region petitioned the Venezuelan Government 
for refuge.
    The conflict is also spilling over the border into Panama 
with greater frequency. Reports indicate that FARC guerrillas 
move freely across the border and have the citizens there 
vacating in their wake. This is understandable considering that 
Panama does not have a standing army to defend itself.
    So, as we can clearly see, there are serious security 
issues which must be addressed immediately in the hemisphere.
    With this said, General Wilhelm, I look forward to your 
remarks this morning and then engaging in an important session 
of questions and answers. Thank you again for appearing before 
the committee today.
    [The following opening statement of Senator Biden was 
submitted for inclusion in the record.]

           Opening Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, thank you for holding this hearing. General Wilhelm, 
welcome. Before we start, I have to tell you that I don't envy you. The 
good news is that Latin America is becoming an increasingly important 
economic partner for the United States and the majority of the region 
continues to work to solidify democratic political systems and the open 
civic institutions necessary to support democracy. The bad news is that 
illegal narcotics organizations continue to become more diversified and 
agile. The plague of violence and corruption that these organizations 
bring with them continues to spread throughout the region.
    I am very interested, General, in hearing more about the 
Administration's plans to replace the counterdrug and other 
capabilities once maintained in Panama and your views of the current 
situation in Colombia. I also hope you will let us know what sort of 
resources you need to do your missions, particularly regarding the 
illegal narcotics threat.
    On the subject of replacing the capabilities we are losing in 
Panama, I have more questions than answers General Wilhelm. I've been a 
student of illegal narcotics for most of my career here in the Senate. 
I know that the traffickers adapt to our tactics fairly quickly, so I 
am interested in hearing how you and the Administration are 
incorporating the military's new focus on flexible, expeditionary 
forces into the new operational architecture that must be created with 
the loss of Panamanian facilities.
    While we are losing a significant capability, we also have an 
opportunity to really re-think our tactics in Latin America and the 
Caribbean. I hope that you will be able to go through some of that 
thought process with us today to explain how the Administration arrived 
at the current plan for new Forward Operating Locations and why this 
makes operational sense. I also hope you will share with us your 
thoughts on how significant an operational hindrance it will be if 
Venezuela continues to deny the use of its airspace for counterdrug 
missions.
    On the subject of Colombia, I don't think there are any easy 
answers. The security challenges confronting President Pastrana and the 
people of Colombia are monumental. The guerrilla forces of the 
Colombian Revolutionary Armed Forces, or FARC, and the National 
Liberation Army, or ELN, control the eastern lowlands and southeastern 
jungles of Colombia. Paramilitary groups have significant control and 
free reign in the northern and central parts of Colombia. These groups 
operate outside the law and threaten everyone--the people of Colombia, 
the people and governments of the region, and, tragically, foreign 
visitors.
    Efforts by Colombian military units to confront these groups are 
often tainted by the lawlessness behavior of some of those units. While 
the military is beginning to clean-up its human rights record, they 
have only just begun.
    For the people of the United States and the world, those challenges 
remain a significant security threat because Colombian traffickers are 
still responsible for most of the world's cocaine production and 
wholesale distribution. The Colombian traffickers are also major 
suppliers of heroin and marijuana. The dominance of Colombian 
traffickers in heroin supply is new this past decade. It is a sobering 
reminder that traffickers will adapt and take advantage of any laxity.
    In Colombia, the traffickers have a unique advantage because of 
their links to rebel and paramilitary groups. The ability of illegal 
narcotics organizations to use both guerrilla and paramilitary groups 
for security gives them tremendous flexibility and reach. The mutual 
dependence that is created by the need of both paramilitary and 
guerrilla groups for funding is extremely dangerous. The money 
generated by illegal narcotics is sustaining various lawless groups in 
Colombia and poisoning democratic institutions.
    So, for Colombia and her allies, the challenge is not merely to 
disband violent, well-funded, and lawless organizations. The real 
challenge is to create democratic Colombian institutions that are 
Colombia feel safe.
    I am not sure President Pastrana's initiatives and the risks he is 
taking will lead to peace. In fact, I am concerned that some of the 
initiatives aimed at peace may, in the short-term, undermine our 
counter narcotics efforts. But, I support President Pastrana because I 
am absolutely sure that peace has never been created without a 
willingness to take risks.
    I was extremely pleased to hear that official talks between the 
government and the FARC guerrillas will begin on July 4th. In the long-
term, we will never win the war on drugs if there is no peace in 
Colombia.
    In sum, as I said in the beginning General, I do not envy you the 
challenges you face. Illegal narcotics organizations do not provide 
easy and obvious targets. They are much more difficult to fight than an 
opposing military force because they are so interwoven with the 
emerging institutions and economies of the region. I look forward to 
hearing your thoughts regarding our strategy and the resources you need 
for defeating these threats.

    Senator Coverdell. I now turn to you, General Wilhelm.

   STATEMENT OF GEN. CHARLES E. WILHELM, COMMANDER IN CHIEF, 
           UNITED STATES SOUTHERN COMMAND, MIAMI, FL

    General Wilhelm. Thank you very much, Mr. Chairman.
    Senator Coverdell, I appreciate this opportunity to appear 
before the Subcommittee on Western Hemisphere, and we 
appreciate your interest and the interest of the members of the 
subcommittee in United States Southern Command and in its area 
of responsibility.
    Beyond that, sir, I wanted to tell you that we very much 
appreciate your personal interest in the region which became so 
apparent to us when, right on the heels of the last rainstorm 
from Hurricane Mitch, you appeared in Central America. That was 
a tremendous morale shot in the arm to our folks, and it really 
let them know that the Congress is aware of what they are doing 
and the conditions that they are doing it under. So, sir, from 
all of them and from me, thank you very much.
    Senator Coverdell. I appreciate your acknowledging that.
    General Wilhelm. Sir, in your letter of 20 May you were 
very explicit about the subjects that you wanted to address at 
this hearing, and you mentioned that you wanted to discuss our 
drug interdiction capabilities and certain other threats and 
that you wanted to examine them in light of the upcoming 
withdrawal of our forces from Panama, as you discussed in your 
opening remarks, and specifically the closing of Howard Air 
Force Base.
    Sir, rather than to go through the customary opening 
statement, which is normally very general, I thought this 
morning I might ask your indulgence for another approach. 
Really what we are talking about is geography, and we are 
talking about resetting the United States Southern Command 
theater architecture for the next century. So, I brought some 
charts, sir, and if you do not mind, I thought I might suggest 
that we begin this hearing by my providing you and up-to-the-
minute report on precisely where we are, what progress we have 
made in setting this new architecture in place. Will that be 
OK, Senator?
    Senator Coverdell. That is absolutely fine. Thank you.
    General Wilhelm. Yes, sir. Senator, I think the best way to 
do this is to simply walk from north to south down the map 
through the region, and I will provide an update concerning 
each key note of our relocation and repositioning plan for the 
theater.
    I will start, sir, right at our home base, the headquarters 
in Miami, Florida. As you know, the command officially moved to 
Miami on the 28th of September 1997, and that move was made 
after extensive deliberations about the best next site for 
Southern Command headquarters as it departed its previous home 
at Quarry Heights in Panama. Miami was selected from 126 sites 
and 26 cities. Sir, at this point, we now have about 20 months' 
experience operating on the ground in Miami, and I would just 
like to reaffirm this morning the wisdom of the decision to 
position the headquarters in Miami. In my judgment, sir, we are 
in the right strategic location to do the business that 
Southern Command must do during the next century. And, sir, I 
would be glad to expand on the reasons for that opinion during 
the question and answer period, if you would like.
    Senator Coverdell. Very good.
    General Wilhelm. Sir, moving about 150 miles south of Miami 
down to Key West, as I know you are aware, prior to the 
emergence of the requirement to relocate all of our forces from 
Panama, we had intended to maintain Joint Interagency Task 
Force South as our organization in Panama, really the central 
element around which we intended to build the United States 
component of the multinational counterdrug center. That element 
would have continued to plan and oversee our counterdrug 
operations in the source zone.
    When the negotiations with Panama were closed, we had to 
think our way through a new approach. The new approach has been 
to relocate Joint Interagency Task Force South to Key West 
where we have merged it with Joint Interagency Task Force East, 
which previously planned and supervised the execution of our 
counterdrug operations in the transit zone. So, now we have a 
single Joint Interagency Task Force that plans and oversees the 
execution of counterdrug operations all the way from the 
Florida Straits to the Southern Cone.
    This was achieved with some savings. The numbers of 
Department of Defense and Coast Guard people required to man 
two independent joint interagency task forces was 378. The 
merged organization operates with 279. We previously had a 
requirement for 31 interagency representatives, Department of 
Transportation, Department of Justice, Customs. Under the new 
organization, we will up that by 3 to 36.
    We have not achieved full manning, but we are convinced 
that with the thoughtful use of the information technologies 
that are available to us, we will be able to assemble a single 
organization that will be able to look from north to south and 
execute from south to north. The attraction of a single task 
force of unity of command: we will have eliminated that line 
between the source and transit zone, one of the seams which we 
tend to be attacked along. So, we think there are some 
efficiencies of scale to be realized in this, and if the 
architecture for command and control comes together in the way 
that we would like, it may well be a more efficient 
organization than the two that we had before.
    Sir, moving over to the southeast, I would like to comment 
on the forces that will be moving to Puerto Rico. As a very 
general statement, I think it is correct to observe that Puerto 
Rico will now assume the role that Panama has for Southern 
Command for about the last 50 years. Puerto Rico will really 
become the hub for our operations in both the source and the 
transit zone.
    The first organization that I would like to discuss is U.S. 
Army South. U.S. Army South at this moment is in the process of 
moving from its previous home at Fort Clayton to Fort Buchanan 
in Puerto Rico. The organization that existed in Panama had 
3,860 members. The new organization at Fort Buchanan will be 
1,382. Now, that is a substantial decrease in the number of 
active component personnel in the Army component command 
headquarters. We hope to compensate for the reduction in 
numbers by forging a very close relationship between our active 
component planners at the headquarters with the 16,000 Army and 
Air Force Guardsmen and Reservists on Puerto Rico, all of whom 
are bilingual, so they have equal applications and will be 
equally effective whether they are operating in the eastern 
Caribbean or in Latin America.
    The second organization that has located to Puerto Rico is 
the Special Operations Command South, our special operations 
component. Our previous strength in Panama was about 353 people 
on the ground. We have about 297 now occupying facilities at 
the Roosevelt Roads Naval Station. The command actually 
completed the move. They are operating out of tents there right 
now because permanent facilities are not yet groomed for them, 
but I instructed them that they must accomplish the move and 
that we could accept no interruption to the operating tempo or 
the flow of deployments into the region. They accomplished 
everything that I asked them to do, and as I mentioned, sir, 
they were up and operating on the 1st of June.
    I would backtrack and mention as well, sir, that the merged 
joint interagency task force was fully operational on the 1st 
of April and assumed responsibility for the broad area mission 
for the transit and the source zones.
    The third element in Puerto Rico that I would like to talk 
about is our Air Force element. Previously our business in the 
air was conducted by the 24th Wing located at Howard Air Force 
Base in Panama. We closed the runway at Howard on 1 May, just 
as we had forecasted we would have to in order to comply with 
the provisions of the Panama Canal treaties. We have relocated 
a small number of aircraft to Puerto Rico. These are 
principally our intra-theater airlift assets, our C-130's. We 
have relocated six air frames to Puerto Rico. They are now 
providing inter-theater airlift support for both U.S. South 
elements and, perhaps most importantly, for Special Operations 
Command South.
    Sir, closing out that portion of the Panama equation, I 
would like to talk very briefly about some of the modifications 
that we have made to the force structure at Soto Cano Air Base 
in Honduras. As I know you are aware, sir--and I know you 
visited Soto Cano--we have had a continuous U.S. presence there 
since 1983. When it became necessary to reset the architecture 
in the ways that we are discussing, we took a very careful look 
at Soto Cano and tried to come up with the best mix of forces 
that would, one, be politically acceptable to the Honduran 
Government and, two, that would best fit with the existing 
structure of Joint Task Force Bravo.
    We determined that this would be the best place to move the 
additional helicopter assets from the first of the 228th 
Aviation Battalion which has been traditionally aligned with 
U.S. Army South in Panama. So, we moved four CH-47 Chinook 
medium lift aircraft and we moved four additional Black Hawk 
helicopters, some in a utility configuration and some in a 
medevac configuration, to Soto Cano. We now have between 18 and 
20 helicopters on the ground there on any given day. So, that 
has become our rotary wing operating hub for the region.
    Sir, I saved really what has emerged as probably the most 
contentious issue for last, and that is the forward operating 
locations. As I mentioned, probably the biggest loss that we 
confront coming out of Panama and our bases there are the 8,500 
feet of concrete, the ramps and taxiways, maintenance 
facilities that have served us so well, as you pointed out, for 
a great many years at Howard. That has been our single base for 
most of our counterdrug assets. It supported AWACS operations, 
P-3 operations, F-16's, ARL's, Customs trackers and Customs 
domes, Citation 550's. Just about everything we have put into 
the air in the drug struggle has been based at Howard at one 
time or another. So, it was a very difficult proposition coming 
up with offsetting locations to sustain those operations in the 
future.
    We selected three sites as potential locations for what we 
termed forward operating locations, as I have gone to great 
pains to point out, throughout the region. These are not U.S. 
bases. These are simply access agreements to host country 
facilities that will enable us to prosecute the operations of 
shared interest against narcotraffickers.
    The first sites are at Curacao and Aruba, and in truth, 
sir, those are two. There are about 35 miles that separate the 
two islands. Those negotiations were undertaken with the Dutch. 
They were successfully concluded during April. An exchange of 
diplomatic notes has occurred and we are now today operating 
from both facilities, as I will show you in just a minute.
    The second location that has been successfully negotiated 
is the airfield at Manta in Ecuador. Negotiations were 
successfully concluded and an exchange of diplomatic notes with 
Ecuador also occurred during April. There we have some 
refurbishment and repair to do before we can open the field to 
unrestricted operations by U.S. counterdrug aircraft, but we 
are operating out of there today.
    The third FOL will be somewhere in Central America. We 
looked initially at Costa Rica. As to whether or not we can 
successfully negotiate an access agreement with Costa Rica is 
somewhat problematic, sir. But we do need a third FOL and that 
third FOL should be in Central America and it should afford us 
access to the eastern Pacific operating areas and movement 
vectors for narcotics, which of course is an area that we do 
need to oppose.
    Sir, just a quick thumbnail to show you where we are today 
because I know there was a lot of justifiable concern in 
Congress as to exactly what would happen on 1 May when we put 
the sawhorses across the end of the runway at Howard Air Force 
Base.
    Well, sir, we are up and operating at the FOL's and other 
traditional operating locations in the AOR. Very quickly, we 
are operating AWACS and tankers out of MacDill Air Force Base 
in Florida. We are operating E-2C Hawkeyes and Navy P-3's out 
of Roosevelt Roads in Puerto Rico. We are operating Customs, 
the double eagle package, the slicks and the domes, out of 
Aruba, along with Citation 550 trackers. And in Curacao--I 
visited there just week before last--we have five F-16's on the 
ground and we have a C-130 variant aircraft with a classified 
mission there as well. In Manta today we have just one Navy P-
3, but some modifications and refinements have been made to the 
facility. And I am looking to expanded operations in Manta by 
the end of the month.
    Sir, I will close this out by just very, very quickly 
giving you a sketch of the capabilities that these three FOL's 
deliver. These arcs display the ranges. P-3's here with the 
small dotted line. AWACS with the bold dotted line operating 
out of Aruba and Curacao, and then we have range arcs that show 
the P-3 operating range out of both Manta, Ecuador and Costa 
Rica. With any one of these FOL's, sir, we will have about 65 
percent of the coverage that we previously enjoyed from Howard 
Air Force Base. With two, with Curacao/Aruba and with Manta, we 
will have about 80 percent of the reach and operational 
coverage that we had before, and with all three, we will have 
about 110 percent. This arc happens to be inscribed on the 
Liberia airfield at Costa Rica.
    Sir, in a nutshell, that is precisely where we are at this 
moment, and I thought that would be as good a point of 
departure as any for our dialog today.
    [The prepared statement of General Wilhelm follows:]

             Prepared Statement of Gen. Charles E. Wilhelm

                              introduction
    Mr. Chairman, distinguished members of the Subcommittee, I welcome 
this opportunity to provide you my assessment of counterdrug (CD) 
efforts in the United States Southern Command's (SOUTHCOM's) Area of 
Responsibility (AOR). SOUTHCOM's specific role is to provide and 
coordinate Department of Defense (DOD) support to Goals Four and Five 
of the National Drug Control Strategy. All of our CD efforts are 
focused on providing this DOD support to the Department of State, U.S. 
law enforcement agencies, U.S. Country Teams and our regional partner 
nations in order to stem the growth, production, and shipment of 
illegal drugs to the United States.
    Today, I will provide you with the following: my personal 
assessment of the region's overall security and stability; a strategic 
overview of the regional drug trafficking threat; an overview of our 
post Panama Theater Architecture; a brief discussion of resource 
constraints; our CD strategy; country and regional assessments; and 
finally my vision of the future.
               security and stability in the southcom aor
    The strategic and economic importance of Latin America and the 
Caribbean to the United States continues to grow and cannot be 
overemphasized. Our growing dependence on oil from the region, which 
includes Venezuela as our single largest source of imported fuel--18 
percent annually, combined with the region's growing dependence on U.S. 
imports, fully justifies a consistent and balanced engagement strategy 
in the region. Latin Americans currently spend 44 cents of every dollar 
on imports from the U.S. By 2000 Latin America is expected to buy more 
U.S. goods than Europe, and by 2010 more U.S. goods than Europe and 
Japan combined. These figures are expected to increase as initiatives 
of the Free Trade Area of the Americas take root.
    For many years most Americans looked south and only saw problems: 
coups, military dictatorships, communist-inspired insurgencies, and 
economic crises. Over the last two decades, the Caribbean and Latin 
America have embraced democratic governance--of the 32 nations in our 
theater, all but one are governed by leaders who serve at the pleasure 
of the people. The military forces of Latin America are also 
contributing to this process by supporting civilian authority and the 
rule of law. Human rights are accorded more respect, and in a region 
where military governments and coups were commonplace, great progress 
has been made. In fact, the only non-democratic country within the 
entire SOUTHCOM AOR is Cuba, a sad remnant of the Cold War. We remain 
hopeful that the people of Cuba will eventually enjoy the personal 
liberties and increased economic opportunities that are inherent in a 
free society with a market economy.
    While we are encouraged by these political and economic trends, we 
are mindful that many of these democracies are fragile. In a region 
that fears no external power, is essentially at peace with itself, and 
on a per capita basis, spends less on arms than any other region of the 
world, transnational threats have emerged as the greatest dangers to 
regional stability. There is a growing realization throughout the 
region, from the tip of the Southern Cone to the Straits of Florida, 
that the corrupting influences of drug trafficking, money laundering 
and organized crime are undermining the foundations of democracy and 
impeding economic development. It is against these transnational 
threats, and specifically illicit drug trafficking, that SOUTHCOM has 
framed its CD strategy.
                            the drug threat
    The entrenched and increasingly diverse illegal drug business 
continues to demonstrate an ability to meet the world demand, and poses 
increasingly complex challenges to CD efforts throughout our area of 
responsibility. Cocaine and heroin continue to be a formidable industry 
in the Source Zone. Coca is grown almost exclusively in the three 
Andean countries of Colombia, Peru, and Bolivia. It is refined into 
finished cocaine Hydrochloride, primarily in Colombia, then transported 
to the United States. Colombian poppy fields are a primary source of 
the opium that is converted into heroin also destined for the United 
States. Finally, there are also numerous growing areas in the Caribbean 
that supply significant amounts of marijuana for U.S. consumption.
Drug Trafficking Organizations (DTOs)
    The nature and modus operandi of DTOs are well known. Their primary 
strategic strength is their ability to operate with significant 
financial backing and freedom of action in the source and transit 
zones. Nurtured by a constant demand for their product, these 
transnational criminal organizations are resilient, dynamic, and agile. 
They have transformed and survived through the dissolution of 
traditional drug cartel organizations. They have proven over time that 
they can rapidly adjust transit routes and modes in response to U.S. 
and Participating Nation interdiction efforts.
    Motivated by profit, DTOs are increasingly gaining control over 
Colombia's infrastructure, economy, and security apparatus. In some 
areas, they operate with near impunity, controlling ports and many of 
the rural areas of the Andean Ridge. An integral part of their 
``security arrangement'' involves the cooperation of insurgents. These 
insurgent groups, in turn, have become increasingly dependent on drug 
profits to sustain themselves. As a result, this mutually beneficial 
relationship has allowed DTOs to realize profit levels that support 
sustained secure operations in rural areas--areas that are increasingly 
encroaching on civilian population centers.
    DTOs possess a large amount of capital and resources, which are 
increasingly invested in legitimate businesses. Their disregard for 
national sovereignty allows them to cross national frontiers with 
impunity and gain unfair advantage over legitimate business 
enterprises, which further undermines the civil government. However, 
DTOs are not invulnerable. Inefficiencies caused by an effective CD 
effort can drive up the price of illegal drugs to the point where U.S. 
demand wanes. With the right amount of effort, the profit from drug 
trafficking can be reduced to a point where it becomes a far less 
profitable and lucrative business.
    We know DTOs intend to maximize profits. To that end, they are 
continuing to expand cocaine production and export to the United 
States, Europe, Asia and new secondary markets in South America. They 
are also continuing to plant higher yield varieties of cocaine in the 
Putamayo and Caqueta growing areas in Colombia and expand cocaine 
production within Peru and Bolivia. In the future, DTOs will likely 
seek to expand cultivation within the border regions of Brazil, Panama, 
and Venezuela. DTOs will also attempt to strengthen security alliances 
with insurgent groups that undermine regional governments.
                          theater architecture
    To sustain our support to on-going CD efforts in the region and to 
compensate for our redeployment from Panama, we have worked hard to 
reset a viable theater support architecture. Our goal is to continue 
support to detection, monitoring and tracking operations as well as 
sustain the logistics base for regional engagement activities.
    Looking at the map of the hemisphere and taking into account 
SOUTHCOM's two primary missions, regional engagement and counterdrug, 
Howard Air Force Base has served us well. However, in compliance with 
our treaty obligations, we will turn over all facilities to the 
government of Panama by the end of 1999. We are establishing a theater 
architecture to support operations into the 21st century.
    Puerto Rico will replace Panama as our main operating hub in the 
theater. The United States Army South (USARSO) is in the process of 
relocating its headquarters to Fort Buchanan. Once reestablished, this 
force of 1,382 active and reserve component soldiers and civilians will 
undertake the missions previously carried out by a contingent of 3,868 
in Panama. To compensate for reduced manning, USARSO will rely heavily 
on the more than 16,000 Army and Air Force Guardsmen and Reservists 
stationed in Puerto Rico. In a great many ways this is an ideal 
marriage. Puerto Rican guardsmen and reservists are bilingual, making 
them equally effective whether conducting engagement activities with 
members of English-speaking militaries in the Eastern Caribbean, or 
with Spanish-speaking counterparts in Central and South America.
    Special Operations Command South (SOCSOUTH) is our most heavily 
committed component. Each year the soldiers, sailors and airmen of our 
theater Special Operations Command conduct nearly 150 deployments into 
our Area of Responsibility. SOCSOUTH provides the quick reaction force 
we need to respond to crises and other fast-breaking requirements. To 
perform these demanding missions Special Operations forces must be 
close to the action and keep a sharp edge on their language and 
cultural skills. We are relocating approximately 350 members of 
SOCSOUTH to Naval Air Station, Roosevelt Roads. We are also finalizing 
basing arrangements for selected command and control and intra-theater 
airlift assets on Puerto Rico. Collocation of ground and air forces is 
imperative for precise planning and rapid execution of crucial 
missions.
    Another important organization, strategically located, at the Soto 
Cano Airbase in Honduras since 1983, is Joint Task Force (JTF) Bravo. 
JTF Bravo is a contingent of about 500 soldiers and airmen who have for 
16 years occupied temporary, expeditionary facilities on the east side 
of the airfield. Soto Cano has been, and will continue to be, our main 
hub for operations throughout Central America. To preserve adequate 
tactical mobility, some of the 228th Aviation Battalion helicopters 
formerly based in Panama will reinforce the limited aviation assets 
assigned to JTF Bravo. The superior performance of JTF Bravo during the 
tragic, early hours of Hurricane Mitch underlined the importance of 
this unit's presence to the people of Honduras.
    The SOUTHCOM Headquarters has now operated in Miami for 20 months. 
I am convinced that we are in the right place to implement our 
engagement and CD strategies. Miami is widely accepted by the nations 
of this hemisphere as the de facto capital of Latin America. With its 
economic, cultural, academic, transportation, and consular ties to our 
area of responsibility, Miami has proven to be the most credible 
location in the continental United States from which we can engage the 
entire region. Relocating from Panama to Miami has supported our 
mission, and afforded us opportunities to pursue ``smart business'' 
practices in providing support services to the SOUTHCOM military 
community. Consistent with my desire to nurture and fully support 
``smart business'' and business reform efforts, I believe the United 
States Government will be best served by purchasing our headquarters 
building and land. An initial review of the development trends in this 
part of Miami reveals dramatic increases in the value of real property.
    Until its recent deactivation, Joint Interagency Task Force South 
(JIATF-South), operated from its headquarters at Howard Air Force Base 
and served as our primary planning and execution agent for CD 
operations and activities in the source zone. Our departure from Howard 
has caused us to redesign our counternarcotics command and control 
mechanism. We have merged JIATF-South with its counterpart organization 
JIATF-East in Key West. Through deliberate integration of 
communications and information systems we have created a single 
organization capable of ``seeing'' from the Florida Straits into the 
Andean Ridge. The merged JIATF will be responsible for planning, 
coordinating and supervising the execution of detection, monitoring and 
tracking and other CD missions in both the source and transit zones. To 
achieve a streamlined and cost-effective organization, the SOUTHCOM 
Headquarters will assume responsibility for some administrative, 
logistical and programmatic activities previously performed by both 
JIATFs.
    We have also made significant progress towards establishing Forward 
Operating Locations (FOLs) to support the air coverage that Howard Air 
Force Base formerly provided. Interim access agreements have been 
signed with the Government of Ecuador for the use of Manta and with the 
Kingdom of the Netherlands for the use of Aruba and Curacao.
    On 16 April 1999, Secretary Cohen designated the Department of the 
Air Force as Executive Agent for Manta, Ecuador and Aruba/Curacao and 
the Department of the Navy as Executive Agent for a future Central 
American location. We are aggressively moving to establish these FOLs 
to support on-going air operations. Expeditionary CD operations began 
in May in Aruba and Curacao and will be expanded in the coming months. 
Our focus will be on executing strategic/high payoff operations 
designed to keep our level of support at the 1997 levels achieved from 
Howard Air Force Base.
    In order to sustain the 1997 level of CD operations, the Assistant 
Secretary of Defense for Special Operations and Low Intensity Conflict, 
through his Drug Enforcement Policy and Support office, submitted a 
proposed reprogramming action of $45,000,000 from the DoD Working 
Capital Fund into the Central Transfer Account in February of 1999. To 
meet immediate Post 1999 theater CD architecture requirements I 
deferred $17,000,000 of current year SOUTHCOM CD requirements, some of 
which are Congressional high interest items, and $15,000,000 of Post 
1999 architecture requirements. Unless the requested reprogramming 
action is approved in the very near future, the full Post 1999 CD 
architecture will not be in place at the start of Fiscal Year 2000. 
Additionally, I will face the challenge of determining which cuts to 
make to the theater CD mission in Fiscal Year 2000 to fund these one-
time relocation expenses.
                          resource constraints
    In addition to an effective theater architecture, SOUTHCOM requires 
sufficient resources to support the goals and objectives of the 
National Drug Control Strategy. The U.S. military services have 
continued to contribute CD detection and monitoring resources to 
SOUTHCOM in the form of dedicated CD aircraft flying hours and ship 
steaming days. The standing Joint Chiefs of Staff CD Execute Order 
establishes specific requirements. However, while the Air Force and 
Navy are tasked to provide a specific number of platforms, higher 
priority contingencies, maintenance requirements, and exercises have 
prevented consistent and full allocation of these platforms to 
SOUTHCOM. Over the past years, we have lost some capabilities. For 
example, a degraded intelligence, surveillance, and reconnaissance 
(ISR) capability is eroding the effectiveness of our CD efforts. 
Adequate ISR capabilities are key to quickly and successfully reacting 
to drug traffickers' changes in operational patterns.
    CD requirements place additional demands on low-density/high demand 
forces. As a result, we are confronted with a large mission and limited 
resources. In response to this challenge, we have devised creative 
approaches that will enable us to effectively and productively carry 
out our CD responsibilities in a resource-constrained environment. We 
have developed a three-part strategy to sustain our CD efforts.
                          counterdrug strategy
    The key components of the strategy are: (1) promoting effective 
regional responses, (2) pursuing better coordination and more effective 
employment of interagency resources, and (3) applying innovative 
tactics, techniques and procedures.
Regionalizing the Effort
    By expanding joint and combined operations, we are moving toward 
multilateral and regional responses. For example, through the SOUTHCOM 
sponsored Caribbean Nations Security Conference and the Association of 
Caribbean Command Military Chiefs, we are strengthening our 
relationships with European forces in the region. Subsequently, the 
contribution of British, Dutch, and French surface and air assets to 
multinational CD operations in the Caribbean has resulted in greater 
operational efficiency and has lifted some of the burden from U.S. 
forces in the region.
    Exercise United CD 98 (UCD 98) is a prime example of how we are 
supporting regional initiatives of the Summit of the America's. Fifteen 
countries were represented at UCD 98, including Argentina, Bolivia, 
Brazil, Chile, Colombia, Dominican Republic, Ecuador, Guyana, Jamaica, 
Mexico, Panama, Peru, Trinidad & Tobago, Venezuela, and the United 
States. UCD 98 brought together national CD teams that compiled 
positive and negative lessons learned from air and maritime CD 
operations. The exercise provided an opportunity to evaluate 
operations, discuss information sharing, and increase CD cooperation 
and coordination. In this regard, the Organization of American States 
is now a full co-sponsoring partner for this year's exercise.
Interagency Involvement
    In much the same way that we have sought better and more complete 
coordination and cooperation with our European and Latin American 
partners, we are pursuing a better integrated CD effort with the 
Departments of State, Justice and Transportation. A Coast Guard Rear 
Admiral commands the merged Joint Interagency Task Force in Key West, 
which has 34 designated interagency billets in its new structure. We 
have also instituted quarterly coordination meetings between CD 
resource sponsors from State, Defense and the Office of National Drug 
Control and Policy. In combination, these initiatives are generating a 
better-managed and more fully coordinated CD effort.
Innovative Approaches
    We have learned that the traffickers study and analyze our 
operating patterns in much the same way we study and analyze theirs. 
Therefore, we have developed innovative ways to maximize the use of our 
limited resources.
    One example of this is the series of ``pulse'' operations we have 
conducted in the Caribbean. The first such operation, ``FRONTIER 
SHIELD,'' successfully disrupted the heavy flow of drugs through Puerto 
Rico and the U.S. Virgin Islands in the Eastern Caribbean. Anticipating 
that traffickers would shift their maritime routes westward through the 
Central Caribbean, we conducted a follow-on operation, ``FRONTIER 
LANCE,'' that targeted routes to and through Hispaniola. A third 
operation, ``FRONTIER SABER,'' sequentially targeted transit routes 
through the Bahamas and the Northern Caribbean.
    We are now conducting follow on phases to these operations to stay 
ahead of the drug traffickers in the Eastern and Central Caribbean. 
Additionally, Operation ``COSTA ESMERALDA'' was recently completed 
along the Western Caribbean movement vector and Operation ``CAPER 
FOCUS,'' designed to disrupt and interdict drug traffic along the 
Eastern Pacific movement vector, is underway today.
    As a companion to these maritime efforts, we have initiated 
Operations ``CENTRAL SKIES'' and ``WEEDEATER.'' These initiatives 
involve surge operations by U.S. aviation assets in support of Central 
American and Caribbean CD forces. These operations concentrate our 
limited helicopter lift assets in specific areas where focused 
intelligence tells us they will have the greatest effect.
    In the Source Zone, we continue to provide Peru and Colombia with 
night vision equipment and training, improvements and modifications to 
their interceptors, as well as detection and monitoring support. Our 
focus is to ensure they maintain the pressure on the long-haul 
airbridge between Peru and Colombia. It appears that this route remains 
essentially disrupted.
    This has forced drug traffickers to shift their air routes over 
Brazil and increase their reliance on the region's extensive river 
systems. Anticipating this shift, we have embarked on an ambitious 
five-year program to enhance the riverine interdiction capabilities of 
Peru and Colombia. In 1998, the first year of the program, Peru opened 
a joint riverine training center at Iquitos. Additionally, indigenous 
riverine support craft have either been launched or are under 
construction and a training and provisioning program is underway that 
will ultimately result in the fielding of 12 operational Riverine 
Interdiction Units in Peru. In Colombia, we have supported improvements 
to their riverine infrastructure and the formation of seven additional 
Riverine Combat Elements. We are optimistic that this type of support 
will enable Peru and Colombia to exert greater control over their 
inland waterways. We are considering extending the program to other 
nations in the region.
    SOUTHCOM is also assisting Colombia in its efforts to reform and 
restructure its Armed Forces, transition the Colombian Army from its 
defensive mindset, forge a better union with the National Police, and 
improve its overall CD capabilities. Colombian leadership is in the 
process of creating a Counterdrug Joint Intelligence Center and a 
Colombian Army Counterdrug Battalion. This battalion is a highly mobile 
unit, designed from the ground up to work with the Colombian National 
Police, other Colombian Army units, or independently, taking the fight 
to traffickers in the safe havens of Southeastern Colombia where the 
majority of cocaine production takes place. SOUTHCOM is working closely 
with the Colombian Armed Forces providing them guidance, advice, and 
training, as they develop these new, important and very relevant 
capabilities.
                    country and regional assessments
    With the exception of Paraguay, which was granted a waiver based on 
vital interests of the United States, all nations within the AOR have 
passed the counternarcotics certification process.
Peru and Bolivia
    For the second consecutive year, we have observed significant 
reductions in coca cultivation, leaf production and base production in 
both Peru and Bolivia. During 1998, cultivation dropped 26 percent in 
Peru and 17 percent in Bolivia, while leaf and base production dropped 
by roughly 25 percent in both countries. It is clear that Peru and 
Bolivia are making steady and significant inroads into cocaine 
production and we are assessing equipment and infrastructure 
development options that will enable them to sustain or accelerate 
these positive trends.
Colombia
    Colombia is the producer of 75 percent of the world's cocaine HCl. 
Lack of government control over nearly 40 percent of the countryside 
has allowed cocaine cultivation in Colombia to increase by 28 percent 
in the last year. Colombia's situation is especially complex because 
the sophisticated international narco-criminal organizations cooperate 
with a mature insurgency and an illegal paramilitary movement. 
Colombian security forces confront a triangle of violence with 
themselves on one point, two well entrenched insurgent groups on 
another, and brutal paramilitary organizations on the third. Together, 
these agents of instability and violence threaten not only the 
democratic and economic security of Colombia, but provide a sanctuary 
for a thriving narco-criminal element. Operating from safe havens in 
eastern and southern Colombia, they are enlarging their domains into 
Panama's Darien Province, as well as Venezuela, Brazil, Ecuador, and 
Peru.
    We have long recognized that Colombia's problems are international 
in their dimensions. The events of the past year have brought that 
point home to all of the countries I have mentioned. We are 
aggressively working with all of the affected nations to encourage 
unity of effort against a threat they are individually incapable of 
defeating.
    Despite this dim picture, I believe Colombia is headed in the right 
direction and I am cautiously optimistic. While the Government of 
Colombia seeks a negotiated settlement with the insurgents, Colombia's 
military leaders are purposefully pursuing reform and restructuring 
initiatives that will make the security forces increasingly competitive 
on the battlefield.
Venezuela
    We have adopted a ``wait and see'' posture in the aftermath of Hugo 
Chavez' landslide victory in Venezuela's December presidential 
elections. We have been encouraged by President Chavez' declaration 
that he desires closer and broader cooperation with the U.S. on CD 
matters. It is notable that on several occasions since taking office, 
President Chavez has pledged ``absolute and total'' commitment to the 
regional CD effort. However, Venezuela has recently denied CD 
overflight requests. My staff is conducting an assessment of the impact 
of this stance by the Venezuelan Government. A U.S. delegation will 
visit Venezuela soon to discuss CD cooperation. It is imperative that 
we come to closure with Venezuela on CD cooperation, otherwise our 
efforts throughout the region will suffer in terms of efficiency and 
effectiveness.
Panama
    As our forces withdraw in compliance with the treaties, I have 
concerns about the ability of local security forces to deal with the 
security challenges that confront Panama. The Panamanian Public Forces 
(PPF) are neither organized nor equipped to deal with incursions by 
Colombian insurgents into the Darien and San Blas Provinces. The 
Maritime Service has already expressed reservations about their 
capabilities to provide for canal security requirements and we have 
detected recent indications of an upsurge in drug trafficking in and 
around Panama.
    It will be necessary to completely reassess our security 
relationship with Panama as our forces depart. We have voiced strong 
support for increased security assistance funding for Panama to enable 
the maritime service to strengthen its capabilities, and we are 
prepared to intensify our engagement with the PPF to assist them in 
meeting other emerging security challenges.
Central America
    Beyond Panama, the other nations of Central America have become a 
vital link in hemispheric efforts to stem the flow of drugs. Fueled by 
concerns over their emergence as transshipment points and increases in 
internal drug use, over the past year we have seen the nations of 
Central America take a more aggressive stance against narcotics 
trafficking. Interagency estimates tell us that as much as 59 percent 
of the cocaine destined for the U.S. travels along the Western 
Caribbean/Eastern Pacific/Central American movement corridor. We have 
increased our involvement and engagement with the nations of Central 
America in the counterdrug struggle. Through Operation ``CENTRAL 
SKIES'' we are providing tactical airlift support to host nation 
security and law enforcement elements, enabling them to respond 
instantly to intelligence cues. Some significant seizures have occurred 
as a result of these operations. We have also forged maritime 
agreements with several of these countries that have facilitated 
interdiction efforts in their territorial waters. Increased cooperation 
with Central American countries is slowly but steadily increasing the 
risk to traffickers along a heavily used movement corridor.
Caribbean Basin
    The Caribbean serves as the conduit for 30 percent of the cocaine 
destined for the United States. Two primary conveyances are used. The 
first is small aircraft that depart South America and fly to areas off 
Puerto Rico, Haiti, Cuba, and the Bahamas where they conduct airdrops 
to waiting high-speed boats that retrieve the drugs and bring them 
ashore. These high-speed boats are the second common conveyance and are 
referred to as ``go-fasts.'' These ``go-fasts'' conduct open-ocean 
transits or skirt the Central American coast to crossing points on the 
Yucatan Peninsula. As in Central America, many Caribbean nations have 
aggressively taken up the fight against drug traffickers by 
participating in operations, such as ``WEEDEATER.'' Even so, the 
ability of DTOs to selectively exploit the limited security and law 
enforcement capabilities available to Caribbean nations, and 
particularly Haiti and the small island states of the Lesser Antilles, 
creates a pressing need for U.S. support and close coordination of 
regional responses to drug transshipment operations.
    SOUTHCOM, in partnership with the Office of the Secretary of 
Defense, the Department of State, and the U.S. Coast Guard, continues 
to work to enhance regional interdiction capabilities by providing host 
nations with training, infrastructure repair, modernization, and 
support for maritime operations in support of host nation CD goals. The 
Caribbean Support Tender, soon to be deployed with a multinational 
crew, will provide Caribbean nations with a mobile training classroom 
for their Navy and Coast Guard forces.
                               conclusion
    My vision of the future for this region is succinctly stated in our 
recently published Theater Strategy:

          ``A community of democratic, stable and prosperous nations 
        successfully countering illicit drug activities and other 
        transnational threats; served by professional, modernized, 
        interoperable security forces that embrace democratic 
        principles, respect human rights, are subordinate to civil 
        authority, and are capable and supportive of multilateral 
        responses to challenges.''

    Printed in Spanish and English, the document containing this 
statement has been delivered to every military leader in our area of 
responsibility. I consider this vision to be realistic, achievable and 
affordable.
    In SOUTHCOM we do not need armor divisions, carrier battle groups, 
fighter wings or Marine Expeditionary Forces. We need modest numbers of 
the right kinds of people, with the right skills, doing the right 
things at the right times and places. This is an economy of force 
theater and I have every intention of keeping it that way. However, 
cheap does not mean free. Our modest requirements for forces and 
resources must be met and the unique needs of this region must be 
considered. I have mentioned several areas where levels of support have 
receded unacceptably placing the mission at risk. These shortfalls must 
be addressed and our forces must be positioned where they will do the 
most good. I request your continued support of SOUTHCOM, especially our 
efforts to create an efficient and effective theater architecture for 
the next century.

    Senator Coverdell. I appreciate it very much.
    General Wilhelm. Thank you, sir.
    Senator Coverdell. That was very informative. It does raise 
a series of questions, General. If I might begin.
    We are going to have to kind of work our way through this. 
Going back to my opening statement, apart from the 
architectural reconstruction that you have outlined here, would 
you comment on the condition of or your view of Panama and its 
situation without any presence at all and no standing military 
in concert with the other forces that are now so obvious in the 
area? Your general overview of that situation beyond security 
for that immediate area, beyond the assets that it provided us 
in terms of the logistics you described here.
    Second, what your general observation is about the 
President-elect's overture. What is your view that that means?
    Let us start with those two, and then we will come back to 
some of these technical issues that you have raised here.
    General Wilhelm. Yes, sir. First, sir, regarding the future 
security posture of Panama, I certainly believe that there can 
be no mistake about it. The United States presence in Panama 
was really an essential element in the nation's security 
posture for a great many years and probably even more so in the 
aftermath of Just Cause in 1989 when their military forces were 
disassembled and were replaced by the Panamanian Public Forces.
    At this moment, as we look at Panama, we do see some rather 
significant challenges, and you mentioned one of them in your 
opening comments. One of the first manifestations that we have 
seen of Panama's inability to protect the sovereignty of its 
borders has been the repeated incursions by FARC guerrillas 
into the southern Darien Province. You mentioned some of the 
conditions that have emerged in municipalities such as La Miel 
where Panamanians have actually been displaced from their homes 
by insurgents either seeking safe passage to other parts of 
Colombia through Panama or are there for purposes of rest and 
recuperation. So, I think that is certainly one source for 
concern, and the Panamanian Public Forces in my judgment are 
neither manned, trained, nor equipped to contend with the kind 
of threat that the fronts of the FARC can present on their 
southern border.
    Another concern that has surfaced within Southern Command 
is what we perceive to be the beginning of a more vigorous 
thrust by narcotraffickers into Panama and into areas in and 
around the canal. We conducted Operation Conjuntos, which did 
enjoy some successes in terms of interdicting the flow of 
narcotics, but by interdicting it, we confirmed the fact that 
it is an active movement vector and that narcotics are moving 
into Panama and in quantities that we had not seen in recent 
times.
    We have had a dialog with the Panamanian Maritime Service, 
their Coast Guard equivalent, and that dialog has centered 
primarily on the responsibilities that both nations have under 
the second treaty, the treaty concerning the neutrality of the 
Panama Canal, and specifically our shared obligation to ensure 
right of free passage and the neutrality of the canal. It was 
not my program, but if the information at my disposal is 
correct, I think the Department of State attempted to get about 
a half a million dollars in additional funding to help the 
Maritime Service expand and improve their capabilities to 
provide some of the maritime protection for the canal.
    As you would appreciate, sir, we are very mindful, of 
course, of our responsibilities under the neutrality treaty, 
and we know that we have the obligation to intervene either 
cooperatively with the Panamanians or unilaterally if the 
condition dictates. So, we are conducting contingency planning 
to that end.
    We also have concerns about the transits of what we refer 
to as our high value assets transiting the canal. Previously 
this was a relatively simple mission because we had forces on 
the ground to provide additional security for these high value 
transits, and now we are having to come up with alternative 
approaches, some of which involve cooperation with Panamanian 
security forces.
    We have maintained an active dialog with Ambassador Simon 
Ferro in Panama.
    We look forward, sir, to establishing a new relationship 
with Mrs. Moscoso and her administration when she takes office 
in September and the development of cooperative security 
arrangements will be very high on our agenda.
    Senator Coverdell. Well, I take it from what you are saying 
that if there was a possibility yet of negotiating not the same 
presence, because that is obviously impossible here to retrench 
this architecture--it is so far implemented that it just stands 
out from seeing this presentation that we would be going 
backward if you tried to rebuild what had been there. But I do 
take it that you think it would be valuable for there to be a 
modern presence associated with the changes that have already 
occurred in Panama if the Panamanian Government were to ever 
agree to that.
    General Wilhelm. Senator, I think you hit the nail squarely 
on the head. Of course, when the negotiations were terminated 
last June, we had to make alternative arrangements because of 
the prosecution of counternarcotics and other operations must 
be continuous. So, as you pointed out, yes, we have moved ahead 
aggressively.
    None of that, however, moves Panama or in any way alters 
its geographic significance. Truly in every respect, it was the 
optimum location to conduct counterdrug operations in the 
transit zone and the source zone, eastern Pacific and 
Caribbean. I would certainly say that if in the future it were 
possible to conclude an FOL-like arrangement with Panama, it 
might well be in the best interest of both countries.
    Senator Coverdell. Potentially the third, the still 
illusive third, FOL would be ideal if it could be established 
in Panama.
    General Wilhelm. That would certainly appear to me to be a 
possibility, yes, sir.
    Senator Coverdell. It would strike me that this 110 percent 
figure would be even larger given where you are now if that 
were one of the FOL's in the picture.
    General Wilhelm. Yes, sir. I really hate to hang my hat too 
heavily on that 110 percent figure.
    Senator Coverdell. I understand.
    General Wilhelm. As you would guess, that causes people to 
say, oh, OK, so you got 10 percent excess capacity or excess 
capability. So, we will just pare you back a little more.
    I do need to put the caveat with that, that if we had every 
asset that is currently obligated to us under the JCS execute 
order under which we work, we could cover 15 percent of the 
total area 15 percent of the time. So, that would be 110 
percent of a fraction of the area. So, I do like to make that 
point very clearly that we are not seeking an overmatch in 
capability.
    But I would have to do the geometry on that, sir. Part of 
the expanding coverage we get using Costa Rica is that it is a 
little bit further north, so it gives us some eastern Pacific 
coverage that we probably would not have out of Panama, but I 
am not sure that that would be statistically significant. I 
would have to scribe the arcs again to come up with a correct 
geographic computation of the coverage we would get.
    Senator Coverdell. Is the assertion that there are very 
significant costs in the build-out--you acknowledged certain 
savings that are occurring in terms of a more productive force, 
smaller force, but maintaining the mission. But the material we 
are looking at suggests considerable sums of money are 
necessary to make these FOL's, the three of them, give you the 
capacity to achieve this reach that you are talking about here.
    General Wilhelm. Yes, sir. There are an awful lot of 
numbers that have floated in open source and in various 
briefings about the cost of doing the necessary refurbishments 
to the FOL sites to make them fully functional. I got a 
briefing, sir--I believe it was Thursday or Friday of last 
week--from Lt. Gen. Lansford Trapp who is my Air Force 
component commander, and General Trapp had just finished doing 
a pretty rigorous scrub of the requirements with his staff. 
What they came up with was a military construction requirement 
of about $122.5 million for all three FOL's.
    Having said that, I regard that as being somewhat 
overpriced because it contained facilities that I do not think 
are necessary, bachelor officers' quarters and enlisted 
quarters, where I believe we could make use of local hotels at 
probably a substantial savings and avoid the recurring 
maintenance costs.
    So, the $122.5 million sounds like a lot of money, but as a 
practical matter, sir, to operate Howard Air Force Base ran us 
$75.8 million per year. This would be a one-time cost to create 
the expeditionary facilities we would need to operate in 
Curacao, Aruba, and Manta, those three locations. After that, 
the annual recurring cost would be significantly less than the 
$75.8 million that we spent in Panama. So, I think we need to 
look at the economics on a pretty broad scope.
    Senator Coverdell. Would you comment on the developments in 
Colombia? I suppose I should ask you to do it specifically as 
it relates to Panama, but I would like to hear your 
observations just in general with regard to developments there 
of late.
    General Wilhelm. Senator, I would be pleased to do that.
    I run the risk of being a real minority speaker here, but 
Senator Coverdell, I am cautiously optimistic about Colombia. I 
have personally been in and out of Colombia for about 20 years, 
so I have had an opportunity to watch the problems grow. I 
think I have probably a better than average acquaintance with 
most of the key players on the military side.
    The reason that I am cautiously optimistic about Colombia 
is I think that with the inauguration of President Pastrana on 
the 7th of August of last year and with the installation of the 
new team that he put in charge of the nation's defense 
structure, I think really a first-rate team assumed the reins. 
They took a loss. No question about it. The leader of the team 
was Minister of Defense Rodrigo Lloreda, and when Minister 
Lloreda stepped down, I think that was a loss for Colombia. But 
he left behind people like General Fernando Tapias who is the 
commander of their armed forces, General Mora Rangel, the 
commander of the army; Admiral Garcia, commander of the navy. 
These are gentlemen who I have known for quite some time. It is 
a solid leadership team. They know their business. They are 
professionals. The country has, in fact, published a national 
strategy to combat the many ills that plague them. The frequent 
lament of the military in the past has been the armed forces 
are at war, but Colombia is not. And, sir, there was more than 
a little bit of truth to what the generals and admirals were 
saying. So, I see competent leadership.
    I see an aggressive and I think constructive approach to 
future defense structure. Minister Lloreda was really the 
leader of a movement to overhaul the way the armed forces were 
organized. As I know the Congress is aware, for a great many 
years there has been a privileged class of soldiers. Those who 
lost out in the draft lottery but had a high school degree were 
categorized as bachelaris, and by a function of law could not 
participate in combat operations, and that was over 30,000 
troops. You cannot run an army that way.
    Minister Lloreda's plan, which has been adopted by General 
Tapias and is being carried forward, would place 15,000 
additional combat troops in the field this year, next year, and 
the following year. So, that would be 45,000 more trigger 
pullers off of overpasses in Bogota and out in the southeastern 
part of the country where the real battles are to be fought.
    As I know you are aware, sir, Southern Command is very 
heavily engaged with the Colombian armed forces now in the 
construction of a counterdrug battalion. I was down there about 
3 weeks ago and visited the troops in training at Tolemida. 
Sir, if you would like, I will get into that in more detail. I 
will not now in the interest of leaving the floor open for 
other questions.
    So, for all of these reasons, I think I see a tighter 
national team forming. I see a country that is beginning to 
realize that it has problems instead of just a national police 
force led by an outstanding man like Jose Serrano, and I see 
better team work between the Colombian National Police on one 
hand and the armed forces of Colombia on the other.
    This team work I think has been demonstrated fairly 
recently, though it did not make front page news in the Miami 
Herald or any other newspapers in the United States. In a kind 
of quiet but effective way, the armed forces of Colombia boxed 
the ears of the FARC on at least three occasions: once in 
Arauca, once in Uraba, and once I believe it was in Cordoba, 
three provinces where they inflicted what I would call mid-
level tactical defeats on the FARC. And this is on the tail of 
those 10 very widely publicized major tactical reverses that 
the armed forces and police suffered at the hands of the FARC 
beginning at Las Delicias and extending all the way up to Mitu. 
So, sir, that is some of the rationale for the cautious 
optimism that I feel at this time.
    Senator Coverdell. Well, that is most encouraging, the 
first encouraging news that I have heard in recent months. I 
hope your optimism is borne out. Obviously, moving 45,000 new 
and, according to you, highly trained people into the field is 
going to change the balance, that is a significant force.
    General Wilhelm. Yes, sir.
    Senator Coverdell. General, the extension of Colombian 
narcotrafficking agents has been talked about recently here as 
it relates to Cuba. I was curious as to any observation you 
might have about any changes or acceleration of activity that 
intertwines itself with Cuba.
    General Wilhelm. Yes, sir. I think probably the one event 
that probably spiked interest in this I think it was about a 7 
metric ton seizure, if I remember correctly, that occurred off 
the north coast of Colombia, and I think it was determined to 
be en route to Cuba, which caused some speculation about where 
it might go from that point forward.
    Senator, as I know you are very much aware, Cuba has 
bilateral conterdrug agreements with 18 nations, obviously not 
the United States. I know of no move afoot on our part to 
establish such relationships.
    I really am not aware--and I talk with the Colombians very 
frequently about this--of any aggressive desires on their part 
to expand beyond the existing relationships they have with 
Cuba, which to the best of my knowledge are primarily 
information sharing. I do not know of any tactical cooperation 
or any ability for their forces to tactically cooperate. And in 
fact, Colombia does not really have the operational reach to 
get to Cuba, and Cuba does not have the operational reach to 
get to Colombia. So, I am personally unaware of any designs 
that might exist in Bogota to expand that relationship.
    Senator Coverdell. General, if you were about to conclude a 
career and contemplate doing other things, as you were to leave 
this post, what would your general sense be as you walked away, 
your reflections about the level of concern because of your 
unique oversight and knowledge of how we are doing in general 
in this region, for which you have had charge? Do you feel 
better? Are you optimistic as the point you made about 
Colombia? Do you harbor concerns about the direction? What 
would be your general demeanor when you had a cup of coffee 
with one of your former colleagues and you were thinking about 
the future of the United States, this hemisphere of 
democracies, a new millennium? What would be the tone of that 
meeting?
    General Wilhelm. Senator, that is a great question that 
could lead to a very long answer.
    Senator Coverdell. Take your time.
    General Wilhelm. I will try to be as concise as I can 
possibly be.
    First, when I assumed command of Southern Command on the 
26th of September 1997, I have always felt that I sort of 
assumed command of a success story, a team that was in first 
place in an international sense. I say that because I looked at 
the region and then I thought about the region in the context 
of the national security strategy and its two principal tenets 
of engagement and enlargement. Yes, we were engaged, but more 
important was the whole subject of enlargement. There I stared 
at a region consisting of 32 countries, which is what my 
operating domain consists of, and 31 of them had functioning 
democracies with free market economies. It certainly was not 
that way 20 years ago when most of Central America was 
embroiled in civil wars. There were either military strongmen 
or outright Communist dictators who held sway in most of the 
nations, and the majority of the people went to bed at night 
serving under the rule of someone other than a leader that they 
had popularly elected. So, that really is I think kind of an 
inspiring success story in a lot of ways: 31 out of 32 
countries.
    And I have made the observation to others because life is a 
competitive business and I compete with the other four CINC's 
for every resource that I get, but I said, you know, if you 
want to look around the world and study your globe for a minute 
and then nominate to me a region where we can say our national 
security strategy has really worked, I defy you to beat my 
region. I think it is a success story.
    Sir, I have been doing this for 36 years now and I have 
come to reach the conclusion that sometimes we do not handle 
success as well as perhaps we ought to. I would like to see us 
do a bit more in the region, sir. Having said that, I recognize 
that there are an awful lot of claimants for very few 
resources. We have certainly seen that in spades in the 
Balkans. That was a humanitarian outrage that absolutely 
demanded our attention, but every time you respond to one of 
those humanitarian outrages, there are other bill payers. And 
again, our region was a bill payer for that.
    The principal point that I try to make, sir, is that we 
really need to look at Latin America and the Caribbean in a 
very pragmatic way and we need to ask ourselves where our 
future is. And I just cite a few facts.
    Very interesting to me that Chile, a country of 14.5 
million people, 14.5 million folks, we do more business with 
them every year than we do with India which has 952 million.
    Brazil, big country, biggest one we have got, 164 million. 
We do more business with Brazil every year than we do with 
China which has 1.3 billion.
    And the beat goes on and on and on. There are many 
examples. I point out that there are 411 million people living 
in my area of responsibility, and they all have a requirement 
for imported goods and services. They do an awful lot of trade 
among themselves, but even when they have completed all of 
that, 44 cents out of every dollar that they spend on imported 
goods and services are imported goods and services from the 
United States of America.
    Then we look at, to me very, very important, demographic 
trends. Where is the world and the region going? Right now we 
are the fifth largest Spanish speaking country in the world, 
the United States. By about 2005, we will be the third largest 
Spanish speaking country in the world. And since we did the 
measurement in 1997, we used 2047 as the benchmark year when 
there will be 100,000,000 people of Hispanic descent in the 
United States.
    My observation is what we have previously referred to as an 
American culture will really become a culture of the Americas. 
When you see events like the free trade area of the Americas, 
which is I hope heading toward a successful implementation in 
the year 2005, and when we think about the projections made by 
economists that by the year 2010, we will do more business with 
our neighbors to the South than we will with all of Europe and 
Japan combined, it really points the way I think toward a 
future in which the Caribbean and Latin America play a very, 
very important part for our country.
    So, for all of those reasons, I advocate and argue, just as 
strongly as I possibly can, for sufficient resources to do the 
job that needs to be done in Latin America to sustain these 
democracies because many of them are fragile. We know that. 
They are youthful. They have got a lot of rough roads to go 
down. There are many, many economic problems that confront the 
region. The near total absence of a middle class in a lot of 
the countries troubles me greatly, though it is not primarily a 
military matter.
    So, sir, I guess you are preparing me for September of the 
year 2000 when I do have to take this suit off, and I have no 
earthly idea what I am going to do with myself. But I think 
those are a few of the things that might be going through my 
mind.
    Senator Coverdell. Well, General, I appreciate the 
observations very much. I think that I take some comfort. They 
are reinforcing when you take the data that you were referring 
to, the interaction between this region and the United States. 
I only think it underscores what a high priority that ought to 
suggest to us. I have always felt that we have tended to take 
too much of its value for granted.
    I think that coming into this new century, for all of us, 
us and our neighbors, all these countries you allude to, we 
probably all ought to take note of, so to speak, a doctrine of 
democracy, a criteria of standing democracy, so that our focus 
is quickly drawn to any incident or circumstance that 
destabilizes that doctrine and that we not let things slide in 
such a way that there is a retrenchment which is possible. You 
mentioned the fragility of these governments. When you look at 
the power of the narcotic base, it is enough to make you 
nervous, or me anyway, particularly when it confronts a small 
or new and fragile government with all the resources they have 
to destabilize it.
    So, I am hopeful that over the next short period of time 
that we might be able to, with the good work of people such as 
yourself and your team and others, bring more focus, resource 
to making sure that we have done everything we know to do to 
secure these democracies and make them be the overriding 
component of the next century versus what we have been dealing 
with in the past.
    I have heard so many facts about the interaction between 
our countries here, but you have shared yet some new ones. I 
need to get those from you. They are very, very moving.
    General, I am going to keep the record open for 5 days for 
other Senators so they may pose several particular questions. 
We may yet pose several others over the next day or 2 to you, 
both on and off the record. So, you might be prepared over the 
next several days to have a few more questions that might come 
from other members who could not attend here today.
    I want to thank you for your willingness, as I said at the 
outset, to be here. And I always want to take the opportunity 
to thank somebody that has devoted their entire life to the 
welfare of our country. You represent so many of your 
colleagues. So, if you would first accept the thank you from a 
citizen and extend it on to the others who work with you as 
well, I would be most appreciative.
    General Wilhelm. Senator Coverdell, that is very kind of 
you, and I will certainly pass your words along personally to 
my people and I have lots of ways to do that. It is much 
appreciated, sir.
    Senator Coverdell. Well, thank you for your service and 
duty. Thank you.
    We are going to move, after the general has gotten his 
material here, to expedite the hearing of the nomination of 
Gwen Clare to be U.S. Ambassador to the Republic of Ecuador.
    Thank you, General.
    General Wilhelm. Thank you, sir.
    [Whereupon, at 10:56 a.m., the subcommittee was adjourned.]

        Additional Questions Submitted Subsequent to the Hearing

                                 ______
                                 

Responses of Gen. Charles E. Wilhelm to Additional Questions Submitted 
                         by Senator Jesse Helms

                                 panama
    #1. Senator Helms. How important have the U.S. military facilities 
in Panama been to the overall effort to combat drug trafficking in the 
region? Has the Department of Defense done any cost comparisons of 
utilizing military facilities other than those in Panama to perform the 
same functions? Please explain their conclusions.
    General Wilhelm. U.S. military facilities in Panama have been 
essential to supporting our overall counterdrug efforts. In addition to 
providing basing for over 2,000 counterdrug sorties per year, Panama 
also supported source and transit zone interdiction operations, 
pierside boardings and searches, and hosted training facilities for 
U.S. and host nation counterdrug units. Since 1995, missions flown from 
Panama supported host nation counterdrug operations resulting in the 
shootdown, forcedown, and/or destruction of 123 narcotrafficking 
aircraft.
    We studied several alternatives for replacing our Panamanian 
airfield facilities with emphasis on sustaining our level of 
counterdrug effort at a reasonable cost. We considered existing U.S. 
military bases, specifically MacDill Air Force Base, Florida; Naval 
Station Roosevelt Roads, Puerto Rico; and Naval Station Guantanamo Bay, 
Cuba. These alternatives were inadequate because they reduced total 
Detection and Monitoring (D&M) coverage to fifty percent of that 
previously provided from Howard Air Force Base.
    To maintain an operational counternarcotics reach into the Source 
and Transit Zones, we require a network of Forward Operating Locations 
(FOLs), covering three areas: the Caribbean, South America, and Central 
America. This geographic coverage allows U.S. Southern Command to 
continue supporting the National Drug Control Strategy effectively but 
at a reduced cost. The cost of enhancing and operating three FOLs for 
10 years is 40 percent of the cost required to operate Howard Air Force 
Base for the same period.
    FOLs provide an effective and efficient alternative to maintain our 
presence in the region for counterdrug operations.

    #2. Senator Helms. Is there any doubt in your mind that you could 
carry out your anti-drug mission better and easier if we were able to 
keep U.S. troops in Panama?
    General Wilhelm. Keeping U.S. troops in Panama is not critical to 
the success of our counterdrug mission. Panamanian facilities and its 
geographic advantage provided an optimum location to support aircraft 
conducting counterdrug missions in Central America, South America, the 
Eastern Pacific, and the Caribbean. To compensate for the loss of 
Panamanian facilities, we developed and implemented an option to 
replicate our counterdrug Detection and Monitoring (D&M) efforts, at a 
reduced cost.
    Using a network of Forward Operating Locations (FOLs) in three 
regions--the Caribbean, South America, and Central America--we can 
sustain counterdrug D&M coverage, without the troop presence, base 
infrastructure, and costs associated with Howard Air Force Base. We are 
currently conducting counterdrug operations from a Caribbean FOL 
(Aruba/Curacao) and a South American FOL (Manta, Ecuador). Improvements 
to runways, taxiways, ramps and other support facilities are needed in 
order for these sites to meet fully our operational and safety 
requirements. When these improvements have been made, our D&M coverage 
will be approximately eighty percent of that previously provided from 
Howard Air Force Base. Once we begin operations from a Central American 
FOL, our overall D&M coverage will increase to approximately 110 
percent of that provided from Panama.

    #3. Senator Helms. After we turn over the Panama Canal, this 
country retains a treaty obligation to help preserve the neutrality and 
stable operation of the canal. Is there any doubt in your mind that you 
could do that job better and easier if we were able to keep U.S. troops 
in Panama?
    General Wilhelm. Southern Command can fully support its treaty 
obligations with the new theater architecture, continued engagement, 
exercises, and contingency plans. For future negotiations, I would 
support a Forward Operations site in Panama, with a reduced presence, 
to maintain operational flexibility and reach within the theater.

    #4. Senator Helms. What is your assessment of Panama's planning for 
reverted military facilities? Since the return to democratic rule in 
1989, what has been Panama's record in utilizing land, buildings, and 
other facilities that have been transferred back to Panamanian control?
    General Wilhelm. The Secretary of Defense approved SOUTHCOM's 
Panama Canal Treaty Implementation Plan on 3 February 1992. At this 
point we have returned approximately 90 percent of lands and 65 percent 
of facilities to the Government of Panama. I defer comments on Panama's 
reutilization of reverted facilities to the United States Ambassador to 
Panama.

    #5. Senator Helms. When we speak of keeping U.S. troops in Panama, 
many think of a U.S.-run ``base.'' But could you explain how we might 
fashion an access agreement that allows us to deploy troops there using 
facilities jointly operated with the Panamanians?
    General Wilhelm. We have already executed a majority of the actions 
necessary for all U.S. forces to leave Panama prior to noon on 31 
December 1999. Southern Command headquarters is established in Miami; 
Howard Air Force Base has ceased air operations; our two Joint 
Interagency Task Forces have merged in Key West; the Special Operations 
Command South has relocated to Naval Station Roosevelt Roads, Puerto 
Rico; and U.S. Army South stood up operations at Fort Buchanan, Puerto 
Rico on 31 July 1999. All transition actions are in motion, and in my 
opinion, irreversible.
    We are currently completing the final critical step of resetting 
the theater architecture--the establishment of Forward Operating 
Locations (FOLs) in Manta, Ecuador; Aruba and Curacao; and a yet-to-be 
determined Central American location in support of Department of 
Defense and Interagency counterdrug air operations.
    A similar access agreement for Panama might be a subject for 
discussion if raised by the new Panamanian government after it assumes 
office in September.
                   forward operating locations (fols)
    #6. Senator Helms. You have seen the estimated costs of operating 
the ``forward operating locations'' in Peru, Aruba, and Ecuador. Is it 
cost-effective to build second-rate facilities elsewhere when the U.S. 
taxpayer has already paid for first-rate facilities in Panama?
    General Wilhelm. We are resetting the theater architecture to 
accomplish our theater engagement and counterdrug missions. The new 
architecture includes the capability to maintain Detection and 
Monitoring (D&M) coverage from FOLs in three regions: the Caribbean, 
South America, and Central America.
    A network of FOLs allows us to sustain our counterdrug D&M 
footprint effectively and efficiently. By investing in moderate 
improvements to host nation airfields and operating facilities, we will 
mitigate risks and create a safe operating environment for our deployed 
forces.
    To accomplish our missions, and meet requisite safety and 
operational standards, the military construction requirement at our two 
operational FOLs will be $122.47 million. After adding this investment 
to an estimated ten-year FOL operating cost, the total FOL option will 
require only 40 percent of the funds needed to operate Howard Air Force 
Base for the same period with deployed forces. From an operational and 
safety standpoint, these will not be second-rate facilities.

    #7. Senator Helms. We understand that you have described the 
``forward operating locations'' (FOLs) as ``expeditionary'' 
facilities--meaning that the U.S. deployments will be small and brief 
(and perhaps) not even military. In light of our long-term struggle 
against drugs and our permanent security obligations in this 
Hemisphere, could these FOLs ever fill the void of losing access to 
Panama?
    General Wilhelm. FOLs in Curacao/Aruba; Manta, Ecuador, and a 
future Central American (CENTAM) location will meet and, in most cases, 
exceed the capabilities provided from Panama. Manta provides better 
deep source zone (SZ) and Eastern Pacific transit zone (TZ) coverage. 
Curacao/Aruba provides for both SZ and TZ coverage. A CENTAM location 
will provide TZ coverage in both the Eastern Pacific and Western 
Caribbean. FOLs will provide more geographic coverage, longer station 
times in key areas, and greater flexibility in positioning assets.
    When compared with area coverage provided by Howard Air Force Base, 
one FOL (Manta or Curacao/Aruba) provides approximately 65 percent area 
coverage; two FOLs (Manta & Curacao/Aruba) provide approximately 80 
percent area coverage; and three FOLs (Manta, Curacao/Aruba, and 
CENTAM) will provide approximately 110 percent area coverage.
   tending to threats and engagement in the americas without forward 
                               deployment
    #8. Senator Helms. One of your jobs is to tend to the security 
threats in the Western Hemisphere. Is there any doubt in your mind that 
you could do your job better by keeping troops in Panama (particularly 
because after we withdraw from Panama, the only sizable deployment 
under your command outside the continental United States will be in 
Puerto Rico)?
    General Wilhelm. The closure of Howard Air Force Base and Rodman 
Naval Station coupled with the relocation and reduction of Southern 
Command component forces has challenged our ability to react quickly to 
events in the southern and western reaches of our Area of 
Responsibility (AOR). Southern Command's restructured theater 
architecture will allow us to continue to conduct regional engagement 
and support to counterdrug operations from bases in Puerto Rico, the 
Continental United States, and forward operating locations in the AOR.
    Southern Command has been evaluating and revising theater 
contingency and functional plans to accommodate the loss of U.S. basing 
in Panama, and adjusting to the downsizing and relocation of our 
components to Puerto Rico and the Continental United States.
                                colombia
    #9. Senator Helms. Critics of our ``war on drugs'' have criticized 
policies that they say, ``militarize'' our anti-drug efforts. In 
Colombia, we have seen what happens when the other side, the 
narcotraffickers, militarize their operations by allying with the 
guerrillas. Under that circumstance, is there any substitute for the 
military playing a key role in confronting the narco-guerrilla threat?
    General Wilhelm. Under current conditions, I see no viable 
substitute for Colombian military involvement in countering the 
intertwined narcotics trafficking and insurgent threats in Colombia. 
Even though the Colombian National Police (CNP) charter requires them 
to take the lead in addressing the counterdrug effort, current 
circumstances justify aggressive engagement and support by Colombian 
armed forces in counterdrug operations. The Colombian military plays a 
key role by providing security during CNP counterdrug operations.
    Recognizing a need for specially trained and equipped forces, the 
Colombian government has recently demonstrated its commitment to 
improve military support to counterdrug operations. The development and 
fielding of a dedicated Army counter-narcotics battalion reflects this 
commitment. This highly mobile organization, designed from the ground 
up to work with the CNP, is focused on supporting CNP counterdrug law 
enforcement activities in remote areas. The airlift and security 
provided by the military allows the CNP to ``get to the fight,'' in the 
jungles, in the insurgent-controlled safe-havens, where the majority of 
cocaine production takes place.
    This is a big step. I am encouraged by Colombia's commitment to 
provide their National Police with the mobility and firepower needed to 
minimize operational risks and maximize opportunities for success 
during counterdrug law enforcement operations. The CNP and military, 
when used together, offer Colombia the best option for countering their 
growing narcoguerrilla threat. The U.S. can bolster this joint team by 
providing increased support to the Colombian Armed Forces while 
maintaining its current level of support to the Colombian National 
Police.

    #10. Senator Helms. Please describe the U.S. military support being 
provided to the Colombian armies ``counter narcotics battalion.'' How 
much does this operation cost? What kind of equipment is being donated? 
What additional forms of support are being considered for this 
battalion?
    General Wilhelm. U.S. military training and material support is 
being provided for the Colombian Army Counterdrug Battalion. Battalion 
Training is being conducted in phases by Special Operations Forces from 
the 7th Special Forces Group. Phase One training, April through June 
1999, included basic instruction for the battalion staff, one line 
company, the reconnaissance platoon, the medical platoon, and the 
mortar platoon. Phase Two training, July through September 1999, will 
include the remaining two line companies and the rest of the battalion 
combat support and combat service support personnel. Finally, Phase 
Three training is scheduled for October through December 1999 and will 
include company and battalion level collective training. All branches 
of the Colombian military and national police will participate in field 
exercises during Phase Three. The total cost of training is 
approximately $3.9 million.
    Material support provided to the battalion comes from two sources. 
The Office of the Department of Defense for Drug Enforcement Policy and 
Support (DEP&S) funds material support of $3.5 million. Equipment 
provided includes uniform items, field gear, medical equipment, and 
communications equipment. Section 506 Drawdown equipment for Fiscal 
Year 1998 will be directed by the Colombian Military Group Commander as 
supplement for the battalion.
    Additional uniform items, field gear, communications equipment, 
Meals Ready-to-Eat (MREs), and ten 5-Ton trucks were among the items 
requested. Drawdown material requests total $1.2 million.
    In all, the training and material support is approximately $8.6 
million. This allows an independent, skilled, self-sufficient, and 
technologically smart counterdrug battalion to enter the jungles of 
Colombia and, with intelligence support from the Joint Intelligence 
Center, wage a winning counternarcotics war against narcotraffickers in 
Colombia.

    #11. Senator Helms. You know the Colombian army and its leadership 
better than anyone else in our government. What steps have they taken 
to become more effective and to improve their human rights record?
    General Wilhelm. I dedicate a great deal of my time as Commander in 
Chief to dealing with issues concerning Colombia. Human rights is at 
the top of the list. Imbedding the ethic of human rights in our 
counterpart security forces is and will remain a key element of our 
strategy in Latin America. I emphasized this commitment to the previous 
Minister of Defense Lloreda, the current Armed Forces Commander, 
General Tapias, and the Commander of the Army, General Mora, and I see 
encouraging improvements in the attitudes and actions of Colombian 
Armed Forces with respect to human rights under the leadership of these 
officers. Allow me to discuss areas where I consider the Colombians to 
have made substantial progress.
    Overall human rights performance: Southern Command (SOUTHCOM) 
regularly monitors statistics on human rights violations in Colombia. 
The Department of State (DoS) provides this data. In their 1998 annual 
human rights report, DoS reported the Colombian security forces were 
responsible for three percent of the extrajudicial killings where the 
perpetrator could be credibly identified. While no number is acceptable 
here except zero, this does represent substantial progress.
    Military officers prosecuted for human rights violations: Past 
attitudes on the impunity of high level officers are changing for the 
better. In the last three months, three general officers have been 
suspended from duty on suspicion of involvement in human rights 
violations. One of them was subsequently arrested, which I believe 
sends a strong signal to the rest of the armed forces that the impunity 
which military officers have traditionally enjoyed has ended.
    Commitment to Human Rights Training: General Tapias and General 
Mora continue to work with SOUTHCOM to expand the Colombian military's 
human rights training program. SOUTHCOM developed a human rights/law of 
war handbook jointly with the Colombians and the International 
Committee of the Red Cross (ICRC). This important handbook incorporates 
international human rights and international humanitarian law standards 
and will simply and effectively convey the basic code of conduct and 
international human rights standards to Colombian military personnel of 
all services.
    Severing ties with irregular armed groups ``paramilitaries:'' 
Colombian military leaders have ceased collaboration with the 
paramilitaries and are now pursuing them as enemies of the state. 
General Tapias reported the Colombian Armed Forces apprehended over 400 
paramilitary members in 1998. The military makes it clear that 
paramilitaries are not their partners.
    Military justice reform: SOUTHCOM is working with the Colombian 
military to establish a Judge Advocate General (JAG) Corps in the 
Colombian Armed Forces. This JAG Corps will guide essential 
institutional reforms and ensure human rights violators in the Armed 
Forces are investigated and prosecuted when allegations are 
substantiated. We are in the early stages of developing this program.
    Other actions in progress: Other developments which represent 
measurable progress towards improving Armed Forces support of human 
rights in Colombia include disbanding the 20th Intel Brigade, 
cooperation on the End-Use Monitoring Agreement, willingness of the 
Armed Forces to comply with the Leahy legislation certification 
requirements, participation in hemispheric human rights conferences, 
and military subordination to the civilian control by the Pastrana 
administration. This subordination includes providing support to the 
peace process. While challenges remain, Colombian military support of 
human rights programs is on the right track, and their leadership is 
committed to making the fundamental changes required.

    #12. Senator Helms. If the guerrillas can count on endless 
financing from the drug traffickers and the army is incapable of 
defeating them as, a military force, what incentive is there for the 
guerrillas to reach a peaceful settlement?
    General Wilhelm. As I see it, for as along as the insurgents and 
paramilitaries have access to financing provided by drug traffickers, 
and security forces remain non-competitive on the battlefield, there 
will be little if any incentive for the insurgents to engage in 
meaningful negotiations leading to settlement of Colombia's four decade 
of internal conflict.
    In my judgement the success of President Pastrana's peace process 
is inextricably linked to the battlefield performance of Colombia's 
security forces. I am firmly convinced that it is within the 
capabilities of the security forces to meet this challenge. The much 
improved performance of the armed forces and national police during 
July's countrywide insurgent offensive and reform initiatives currently 
underway within the armed forces provide reason for cautious optimism.
    This question is closely linked to question #14. For specifics 
concerning the points raised above, please see my answer to that query.

    #13. Senator Helms. What if President Pastrana's peace initiative 
fails and he is forced to ask the United States for increased military 
support, including money and equipment for his Army? Are we prepared to 
tell him ``no,'' even if doing so means the war in Colombia will spiral 
out of the control?
    General Wilhelm.  President Pastrana's peace initiatives support a 
larger plan to end the ills and violence that plague Colombia. Should 
the peace process not achieve the Government's objectives, I do not 
foresee the situation in Colombia spiraling out of control.
    The Colombian Government's establishment of a demilitarized zone 
and demonstrated commitment to upcoming peace talks has not mitigated 
the internal bloodshed. The Revolutionary Armed Forces of Colombia 
(FARC) and the National Liberation Army (ELN) have become increasingly 
aggressive in recent months, conducting highly publicized kidnappings 
and initiating clashes with Colombian security forces. There have been 
over 50 such incidents during the last 90 days, highlighted by the 
Avianca airliner hijacking and the abduction of churchgoers in Cali.
    The situation in Colombia is threatening long-term regional 
stability, peace, and economic prosperity. Additional U.S. government 
support to Colombia in the form of increased detection and monitoring, 
information sharing, equipment and training must remain an option. 
Raising the level of support for the Colombian military equal to that 
of the Colombian National Police will help strengthen the Colombian 
Government's position at the negotiating table and improve their 
ability to achieve success in the peace process and reverse current 
trends.

    #14. Senator Helms. What sort of impact does the Colombian conflict 
have on neighboring countries. We understand that Peru and Venezuela 
have been concerned enough to deploy additional troops on their borders 
with Colombia and that Panama is practically defenseless against 
Colombian guerrillas operating in its territory. What can we do to 
address this threat to regional security?
    General Wilhelm. Your question cuts to the heart of an issue that I 
have pursued continuously since coming to Southern Command. The 
problems that confront Colombia cannot be viewed in isolation. In one 
way or another and to varying degrees or extents, the problems that 
plague Colombia plague each of its five neighbors. Panama, Venezuela, 
Peru, Ecuador and Brazil have all been affected by the Colombian 
crisis, and I believe those affects are increasing in their severity.
    As you mention, both Peru and Venezuela have deployed forces along 
their borders with Colombia to prevent or limit intrusions by 
insurgents, narcotraffickers and paramilitaries. In the case of 
Venezuela, I have personally visited the majority of their outposts. On 
any given day, Venezuela has approximately 10,000 troops along the 
Colombian frontier. The cessation of hostilities between Peru and 
Ecuador and implementation of the peace accords has freed troops from 
both nations for commitment on their borders with Colombia. Thus far, 
Peru has initiated the strongest response. The continuing economic 
crisis in Ecuador has limited President Mahuad's options; however, the 
border is a source of deep concern to the Ecuadorian military. Brazil 
long asserted that it was exempt from the drug problem. Incursions by 
insurgents and narcotraffickers into the coveted Amazon region have 
caused Brasilia to rethink its position. Brazil has reinforced its 
northwestern garrisons and during the past year has initiated focused 
military operations to protect its sovereignty. Panama's position is a 
difficult one. The disbanding of its military forces following 
Operation Just Cause has left the country with only police forces. The 
Panamanian Public Forces are neither manned, trained, nor equipped to 
deal with the FARC formations that have made repeated incursions into 
the southern Darien province.
    We have emphasized to all of the militaries in the region that this 
is a regional threat that can only be effectively countered by a 
regional response. We have encouraged cooperation at the tactical level 
among the forces positioned along the borders. We have enjoined the 
armed forces to vigorously pursue information and intelligence sharing 
initiatives, and we have provided assistance within our capabilities to 
develop pathways for these exchanges. Counterdrug operations provide 
additional opportunities for regional cooperation. The host nation 
rider program is but one of many examples. Through our exercise program 
we provide forums where military and civilians leaders can come 
together to explore ways and means to combat these share threats.
    When all is said and done, the decisive battle must be waged and 
won within Colombia. Based on our experiences elsewhere in Latin 
America, I am convinced that the solutions to Colombia's problems, 
which are now the problems of the region, lie in depriving the FARC and 
ELN of the revenues they receive from narcotraffickers and in achieving 
and negotiated settlement to the four decades old insurgency. To 
achieve these goals the armed forces must improve their battlefield 
performance. The string of tactical defeats suffered by the security 
forces at the hands of the FARC over the past two years have created a 
situation whereby the FARC have little incentive to engage in 
meaningful or substantive negotiations. To improve their combat 
capabilities, the Colombian armed forces need help that only the United 
States can or will provide. During the Samper administration we 
continued to provide assistance to the Colombian National Police, but 
provided little in the way of meaningful assistance to the armed 
forces. As a consequence Colombian national capabilities are out of 
balance. In my judgement, we must increase our support for the armed 
forces while sustaining our assistance to the Colombian National 
Police. Though a reputable and well-led force, the national police are 
overmatched by the heavily armed and increasingly aggressive mobile 
columns of the FARC.
    I am encouraged by the performance of the armed forces during the 
FARC's countrywide July offensive. In most engagements government 
forces gave better than they got and we saw new and encouraging levels 
of cooperation and coordination among the various services and between 
the armed forces and the police. This may be a harbinger of better 
things to come. The newly created Counter Drug Battalion is coming 
together smoothly and we are on schedule to activate the Colombian 
Joint Intelligence Center in mid-December at Tres Esquinas. I predict 
that these will be high performance units that will give an excellent 
account of themselves in the field and set new standards for the armed 
forces. To reiterate, our continued support will be essential for the 
success of these initiatives and for the long-term success of Colombia.

    #15. Senator Helms. Have you consulted with regional defense 
leaders about this problem? (Refer to question #14)
    General Wilhelm. Yes, the situation in Colombia has been a topic of 
frequent discussion with civilian and military leaders in the bordering 
countries of Ecuador, Peru, Venezuela, Brazil and Panama. All are 
concerned about the violence in Colombia and its potential spread 
across the borders. Concern is not limited to the Andean nations. I 
have had recent discussions with officials from Chile, Argentina and 
all of the nations of Central America about the pervasive impacts of 
narcotrafficking and the ills it breeds.

    #16. Senator Helms. One of the reasons that our policy has avoided 
military help for Colombia is because of human rights concerns. Do you 
think increased U.S. material support and training for the Colombian 
military will help or hurt the human rights situation in Colombia?
    General Wilhelm. Unquestionably, increased U.S. material support 
and training for the Colombian military will help the human rights 
situation in Colombia. First I'll address the training issue. All 
training provided by U.S. Southern Command (SOUTHCOM), including every 
course, seminar, exchange, or exercise, contains a human rights 
component. The Colombians already have a vigorous human rights training 
program in place. We aggressively supplement that program with our own 
additional training. SOUTHCOM's training serves both to reinforce the 
importance we place on human rights and to bring an international 
perspective to bear on the human rights efforts of the Colombian Armed 
Forces. As a matter of public law, we allow only those members of the 
Armed Forces who demonstrate respect for human rights and compliance 
with international rights standards to receive the benefit of U.S. 
military training.
    Insofar as material assistance is concerned, the Leahy legislation 
requires full compliance with human rights as a prerequisite for 
providing material assistance. Units with a history of human rights 
abuses cannot receive U.S. material assistance. These restrictions, 
which we rigidly enforce, provide the Colombian Armed Forces powerful 
incentives to prevent human rights violations.
                               venezuela
    #17. Senator Helms. What are the practical implications of the 
Venezuelan government's refusal to allow anti-drug flights over its 
territory?
    General Wilhelm. The Venezuelan Government's recent denial of 
overflight rights for United States aircraft conducting 
counternarcotics missions has two significant practical or operational 
implications. First, denial of overflight impedes our ability to 
maintain contact with suspect aircraft for ultimate handoff to host 
nation forces and prosecution of end games. The countries most 
significantly effected are Venezuela and Colombia. Second, denial of 
Venezuelan overflight adds one to one and one-half hours transit time 
for detection, monitoring and tracking aircraft proceeding from Forward 
Operating Locations (FOLs) in Curacao and Aruba on missions over the 
heart of the source zone in Colombia and Peru. Increased transit time 
ultimately results in reduced on-station time.
    This situation has reinforced the need to attain full operational 
capability and capacity at the FOL in Manta, Ecuador. Given the ability 
to operate the full complement of detection, monitoring and tracking 
assets from Manta, we would have an immediate workaround to Venezuelan 
overflight restrictions. For this and other reasons it is essential 
that FOL enhancements be fully funded.
             united states school of the americas (usarsa)
    #18. Senator Helms. What is your response to those who say the 
School promotes human rights violations and that it should be shut 
down? Please provide your best argument for keeping the School.
    General Wilhelm. Senator Helms, I appreciate this question and the 
opportunity that it gives me to speak out again in support of the 
United States Army School of the Americas (USARSA) and the unique and 
singularly valuable role it is playing in support of the United States 
Southern Command mission. In my professional view there is every reason 
in the world to keep the doors of this institution open and there are 
none at all for closing them. USARSA must be judged on its current 
merits, not on isolated past deficiencies. As it stands today, USARSA 
conforms strictly to all United States Army training standards, it 
vigorously and effectively supports our nation's strategic goals and 
objectives in this hemisphere, and it has the most expansive and 
effective human rights training program of any Department of Defense 
training institution.
    As Commander in Chief of the United States Southern Command, I am 
one of the primary benefactors of the School and the great work that it 
does. My position on USARSA has been clear, consistent and unambiguous. 
This School plays a key and essential role in our regional engagement 
and counterdrug programs. It serves as an engine for positive change 
within the militaries of the region. Graduates of USARSA leave Fort 
Benning with a greatly increased appreciation for the proper role of 
armed forces in a democratic society; with a clear understanding of the 
reasons why militaries must be subordinate to civilian leadership, and 
with greatly heightened awareness of the imperative requirement for 
respect for human rights and absolute compliance with the tenets of 
International Humanitarian Law.
    I regard professional military education as a long-term investment 
in healthy relationships with our neighbors to the south. Since its 
inception more than 50 years ago, the School has trained nearly 60,000 
officers, cadets, noncommissioned officers and civilians from North and 
South America. The School has been a place where lifelong friendships 
and professional relationships are forged. USARSA critics make much of 
the handful of graduates who have violated the lessons that were taught 
to them at the School. No mention is made of the legions of diligent, 
honorable, principled and highly professional officers who have 
returned to their countries and played leading roles in enterprises 
such as the forging of the peace accords between Peru and Ecuador and 
the recovery of devastated communities from the ravages of Hurricane 
Mitch. Ignored are the constructive, disciplined, apolitical approaches 
taken by USARSA graduates when confronted with challenges to democracy 
and the rule of law as have recently been the cases in Paraguay and 
Ecuador.
    Because of USARSA's critical importance to United States Southern 
Command and to United States interests in this hemisphere I will make 
again a statement I have made before . . . if we were to lose USARSA 
today, I would have no option other than to recreate it tomorrow at 
considerable expense and with an unacceptable loss in the continuity of 
one of the centerpieces of our regional engagement strategy.
            military's commitment to counter-drug operations
    #19. Senator Helms. Many informed observers believe that the U.S. 
military has been and remains wary of getting involved in counter-drug 
operations. What is your opinion of the level of commitment within the 
military to this mission? What should be done to increase the level of 
support for this mission?
    General Wilhelm. As reflected by our Global Military Forces Policy 
(GMFP) counterdrug missions are accorded a lower priority than missions 
that support major theater wars, contingency operations, training, and 
exercises. Therefore, when we are confronted with contingencies such as 
Bosnia, Kosovo, and tensions between China and Taiwan, forces are 
reassigned from counterdrug missions to address these higher priority 
national military requirements. Though the reasons for these diversions 
of forces are apparent, it is equally apparent that the inconsistent 
availability of resources makes coherent planning and execution of 
counterdrug operations problematic. In simple terms, we face a strategy 
and forces mismatch. The same high-demand/low-density assets that are 
required for higher priority contingencies are those most urgently 
needed for effective and productive counterdrug operations. Thus, we 
are confronted not with a lack of Department of Defense (DoD) 
commitment, but with real world operational and resource constraints.
    Our most critical deficiency is intelligence, surveillance and 
reconnaissance (ISR). We generally have sufficient ISR assets to cover 
15 percent of the source and transit zones 15 percent of the time. That 
is more a statement about the magnitude of the task than of our 
commitment to it. We need accurate, focused, and timely intelligence in 
order to effectively commit limited assets and to obtain maximum 
results from their employment. We are working with the Joint Staff and 
the intelligence community to address these deficiencies.
    In summary, I am convinced that DoD is committed to its role in 
support of the National Counterdrug Strategy. Because a change in DoD 
mission priorities is unlikely, I will continue to advocate for 
increases in total force structure that will provide a broader base of 
capabilities to meet counterdrug requirements.
                  terrorism threats in the hemisphere
    #20. Senator Helms. What is the level of the terrorism threat in 
the Americas?
    General Wilhelm. Although we assess the overall terrorist threat to 
U.S. interests in Southern Command's Area of Responsibility (AOR) as 
low, Colombia is the exception. Despite recent success in combating 
terrorism, the presence of terrorist and criminal groups in Southern 
Command's AOR continues to pose a credible threat to U.S. individuals, 
businesses, and government interests.
    Latin America accounted for 110 of the 273 (40 percent) 
international attacks conducted by terrorist groups according to 1998 
Department of State Statistics. Of these attacks, 87 were directed 
against U.S. interests in Latin America. Almost all the anti-U.S. 
attacks in Latin America happened in Colombia or were connected to 
Colombian terrorist groups. Of the 87 anti-U.S. attacks in the region, 
77 were bombings of multi-national oil facilities in Colombia, in which 
U.S. businesses have an interest. An oil pipeline-bombing incident in 
October killed 71 people and injured more than 100.
    The National Liberation Army (ELN) and the Revolutionary Armed 
Forces of Colombia (FARC) continue to pose the most significant 
terrorist threat to Americans, as evidenced by the recent kidnapping 
and execution of three U.S. citizens by the FARC (04 MAR 99) and the 
aircraft hijacking by the ELN (12 APR 99). These two groups continue to 
increase attacks (kidnappings, bombings, and extortion campaigns) 
against Colombian security forces and civilians despite the current 
peace process with the Colombian government. So far this year, 13 
American citizens have been kidnapped in Colombia. Four of those 
victims are still being held. Additionally, three members of the New 
Tribes Mission abducted in 1993 remain missing.
    Arrests of terrorist leaders from the Sendero Luminoso (SL) and 
robust counterterrorism operations against the Tupac Amaru 
Revolutionary Movement (MRTA) have significantly diminished terrorist 
capabilities to conduct attacks in Peru, particularly in urban areas.
    Recently, we have witnessed the development of militarized criminal 
groups (MCG), also known as criminal enterprise armies (CEA), using 
terrorist-type tactics to achieve their goals and objectives. 
Reportedly, one such group of bandits is operating along the border of 
Belize and Guatemala. These groups pose a higher threat throughout our 
AOR and their capabilities to conduct criminal operations challenge the 
response of law enforcement agencies.
                  terrorism threats in the hemisphere
    #21. Senator Helms. What efforts should be taken to address the 
insecurity in the ``Tri-Border'' area with Argentina, Paraguay, and 
Brazil?
    General Wilhelm. Terrorist support elements are primarily in the 
Tri-Border area to generate revenue. They, and other criminal 
organizations, are attracted to the financially lucrative opportunities 
offered by contraband trade, particularly in the large duty-free zone. 
Illicit profits are well hidden and can easily be diverted to fund 
terrorist organizations and operations in other parts of the world. 
Similar corruption and contraband opportunities exist in other major 
duty-free zones in the Southern Command Area of Responsibility, such as 
those located in Colon, Panama and Margarita Island, Venezuela. The 
presence of terrorist support elements and sympathizers, and the ease 
of entering the region with counterfeit travel documents, attract 
terrorists to the area to hide, rest and recuperate, and possibly to 
plan, and coordinate operations worldwide.
    Security in the Tri-Border area has improved as a result of 
combined efforts by the Governments of Paraguay, Argentina, and Brazil. 
Security can be further augmented through greater multi-lateral 
information sharing between the region's law enforcement, security, and 
intelligence services, as well as with U.S. counterparts. Improved 
communications and computer connectivity between these agencies would 
allow the development and shared use of databases and other information 
to detect and deter the movement and actions of terrorists and their 
support elements.
    The attractiveness of the Tri-Border area to both terrorist and 
criminal groups can be greatly reduced by increased customs and 
immigration control measures and improved law enforcement efforts that 
counter corrupt activities, money laundering operations and illegal 
migration. Establishing effective information sharing networks between 
the U.S. Government and those of the region is critical to the 
enhancement of security in the Tri-Border region.
                                 ______
                                 

Responses of Gen. Charles E. Wilhelm to Additional Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

                   forward operating locations (fols)
    #1. Senator Biden. General Wilhelm, studies show that we get more 
bang for our buck from investing in drug treatment than by investing in 
source country control. As you know, we already devote two thirds of 
the national drug budget (65.8 percent) to supply reduction. I am not 
convinced that this is the most effective use of funds. In your Area of 
Responsibility we are now looking at establishing three new fully 
operational Forward Operating Locations in Manta, Aruba and Curacao. I 
have heard various estimates of what this will cost, and all of them 
make it sound like this will be an expensive endeavor. How much do you 
expect the new Forward Operating Locations to cost and from which 
accounts would this money come from? Please provide a detailed 
explanation of how you envision these new locations working to combat 
illegal narcotics organizations. In other words, I want a tactical 
match up--how our use of these bases will impact the methods of the 
``bad guys.''
    General Wilhelm. The National Drug Control Policy has a budget of 
$17.9 billion for Fiscal Year 1999. The total budget for Goal 5, Break 
Foreign and Domestic Sources of Supply, is $2.28 billion or 13 percent 
of the total national counterdrug budget. The Department of Defense 
(DoD) has a $937 million counterdrug budget for Fiscal Year 1999. Goal 
5 accounts for $277.4 million, or 29.6 percent of the DoD counterdrug 
budget.
    The following validated and prioritized MILCON projects support 
Southern Command Concept of Operations for the Counterdrug Forward 
Operating Locations at Aruba, Curacao, and Manta Air Base (AB):

1. $10.60 million--Consolidated Planning and Design
2. $33.15 million--Manta AB--Airfield Pavement/Site Improvements
3. $31.00 million--Curacao--Airfield Pavement/Site Improvements
4. $ 9.10 million--Aruba--Airfield Pavement/Site Improvements
5. $ 9.20 million--Curacao--Aircraft Maintenance Hangar/Nose Dock
6. $ 6.70 million--Manta AB--Aircraft Maintenance Hangar/Nose Dock
7. $  .50 million--Aruba--Aircraft Maintenance Hangar
8. $ 2.13 million--Manta AB--Crash/Fire/Rescue Station
9. $ 3.10 million--Curacao--Maintenance Facilities
10. $ 4.96 million--Manta AB--Petroleum/Maintenance Facilities
11. $ 2.20 million--Curacao--Squadron Operations/Aircraft Maintenance 
Unit
                     (AMU)
12. $ 2.61 million--Manta AB--Squadron Operations/AMU
13. $  .90 million--Aruba--Squadron Operations/AMU
14. $ 4.70 million--Manta AB--Visiting Airman Quarters/Dining Facility
15. $ 1.62 million--Manta AB--Visiting Officers Quarters
  --------------
  $122.47 million--Total

    The $122.47 million will come from the Air Force Project Code (PC) 
9500. PC 9500 is for Curacao, Aruba and Manta FOLs. The $122.47 million 
total is for MILCON projects. The U.S. Air Force allocated 
approximately $14 million per year in their Program Objective 
Memorandum for Fiscal Year 2000 and Fiscal Year 2001 for combined 
operating expenses at Curacao, Aruba and Manta.
    I was pleased to receive your question concerning the tactical 
impacts of the FOLs. Too often, these kinds of issues are relegated to 
programmatic debates with little or no emphasis on strategic and 
operational dimensions. The counterdrug mission is a challenging one. 
When we have every asset that is committed to this mission through the 
Joint Chiefs of Staff Execute Order we are able to cover just 15 
percent of the source and transit zones, 15 percent of the time. This 
actually says more about the magnitude of the task than it does about 
the adequacy of resources. We have two absolute requirements. The first 
is, for the best possible intelligence support. Timely and accurate 
intelligence enables us to commit limited resources at the right places 
and at the right times to achieve the best possible effect against 
narcotics traffickers. The second requirement is to position our assets 
in such a way that we maximize coverage of key trafficking routes and 
cultivation and production areas. Once all FOLs (to include Central 
America) are fully activated, we will have roughly 110 percent of the 
area coverage or operational reach that we enjoyed from Howard Air 
Force Base in Panama. Of greater importance, transit time to critical 
areas will be significantly reduced permitting us to spend more time 
in, astride or over key mission areas. The Marita FOL is particularly 
important. When improvements are complete and the airfield is capable 
of supporting operations by the full complement of detection, 
monitoring and tracking assets, we will have more responsive and much 
improved coverage of the critical southern source zone. This includes 
Southern Colombia where the majority of coca is grown and much of the 
cocaine is produced, the air bridge between Colombia and Peru, 
Northwestern Brazil and points of origin for maritime trafficking 
through the Eastern Pacific. Curacao and Aruba will provide improved 
coverage of the northern source zone (Colombia and Venezuela), and 
heavily used trafficking routes through the Eastern, Central and 
Western Caribbean. The Central American FOL will provide blanket 
coverage of Central America which is emerging as a major transit area, 
and much improved access to and coverage of the Eastern Pacific routes 
that we regard as an open backdoor to Mexico and ultimately to the 
United States. In addition to purely geographic advantages, the FOLs 
will give us greater flexibility. We will be able to concentrate assets 
at the location or locations best suited for operations based on 
weather patterns, cultivation and production cycles and alterations in 
routes and methods used by traffickers to move their product and evade 
our interdiction efforts. If we execute the FOL plan as it is framed, 
we will emerge with a significant tactical advantage in comparison with 
previous single site operations from Panama.

    #2. Senator Biden. Currently our short-term agreements allow use of 
bases in Manta for six months and Aruba and Curacao for one year. All 
three sites will require significant military construction to achieve 
full operational capacity. Cost estimates have varied and we have yet 
to see a solid cost-estimate and a detailed plan for post-Panama 
operations. At the moment we have short-term agreements for our Forward 
Operating Locations in Manta, Aruba and Curacao. What kind of military 
construction will be required to bring these locations to full 
operational capacity and how much will it cost? What are we doing to 
guarantee that we will have use of these sites for long enough to 
justify additional investments there? Is there a more limited, less 
costly set of construction options that would allow us to increase 
capability in the interim, until we have longer-term agreements in 
place?
    General Wilhelm. The military construction required to bring these 
existing facilities to U.S. standards is primarily safety and 
maintenance-related. Runway and parking ramp upgrades, hangers, 
navigation aids, fire rescue, operations office space and quarters are 
among the items that total $122.47 million for the next two years with 
$42.8 million needed in Fiscal Year 2000. Costs by site are listed 
below.
    Temporary facilities like the Air Force's ``Harvest Bare'' are 
currently being used for interim facilities. Their use will continue 
until permanent facilities are completed. These expeditionary 
facilities (tents and prefabricated structures) are effective, but have 
a limited service life. After 18-24 months they require replacement or 
significant maintenance. Additionally, they will not withstand 
hurricane and storm force winds prevalent in the Caribbean and coastal 
regions of South America. Permanent facilities will be constructed 
using materials and methods, which will result in the least cost, both 
in terms of initial construction and routine Operations and Maintenance 
(O&M). ``Expeditionary'' type facilities (preengineered buildings, K-
spans, etc.) will be used where practical.
    Ambassador Rich Brown, continues to serve as the State Department 
negotiator for the FOLs. Ambassador Brown is heavily involved in 
negotiating long term agreements (10 years), and has already held 
initial discussions with both the Dutch and the Ecuadorians. I have 
been informed of no significant impediments to reaching the long term 
agreements we seek.
    Economy has been a watchword during FOL concept development and 
negotiation. Based on 10 year cost projections, we estimate that 
operations from the FOLs will cost 60 percent less than continued 
operations from Howard Air Force Base. We will strive to achieve 
additional economies each step of the way. To answer more fully your 
questions concerning costs associated with FOL development, I provide 
the following prioritized list of MILCON requirements by site:

                        [In millions of dollars]

Common costs ($10.60)
    Consolidated Planning and Design..........................    $10.60
Manta ($55.87)
    Airfield Pavement/Site movements..........................     33.15
    Aircraft Maintenance Hangar/Nose Dock.....................      6.70
    Fire Crash/Rescue Station.................................      2.13
    Visiting Airmen Quarters/Dining Facility..................      4.70
    Squadron Operations/Aircraft Maintenance Unit (AMU).......      2.61
    Petroleum Oil & Lubricants/Maintenance Facilities.........      4.96
    Visiting Officers Quarters................................      1.62
Curacao ($45.5)
    Airfield Pavement/Site Improvements.......................     31.00
    Aircraft Maintenance Hangar/Nose Dock.....................      9.20
    Maintenance Facilities....................................      3.10
    Squadron Operations/AMU...................................      2.20
Aruba ($10.5)
    Airfield Pavement/Site Improvements.......................      9.10
    Aircraft Maintenance Hangar...............................       .50
    Squadron Operations/AMU...................................       .90
                    --------------------------------------------------------------
                    ____________________________________________________

        Total.................................................    122.47

    #3. Senator Biden. On May 25th, Venezuelan President Hugo Chavez 
said, ``We cannot accept U.S. counternarcotics flights because 
Venezuela is a sovereign country.'' In contrast to that refusal, 
President Chavez told reporters in the United States ten days ago that 
Venezuela's commitment to cooperating with the United States on drug 
issues is ``absolute and total.'' In the past, Venezuela has allowed 
U.S. Customs planes to use its airspace for counterdrug missions, but 
it has been inconsistent. How effective can the new Forward Operating 
Locations be if Venezuela continues to deny the use of its airspace for 
counternarcotics work? To what extent are your operations not based at 
the new Forward Operating Locations hindered by Venezuela's denial of 
the use of its airspace?
    General Wilhelm. The Venezuelan Government's recent denial of 
overflight rights for United States aircraft conducting 
counternarcotics missions has two significant practical or operational 
implications. First, denial of overflight impedes our ability to 
maintain contact with suspect aircraft for ultimate handoff to host 
nation forces and prosecution of end games. The countries most 
significantly effected are Venezuela and Colombia. Second, denial of 
Venezuelan overflight adds one to one and one-half hours transit time 
for detection, monitoring, and tracking aircraft proceeding from 
Forward Operating Locations (FOLs) in Curacao and Aruba on missions 
over the heart of the source zone in Colombia and Peru. Increased 
transit time ultimately results in reduced on-station time. Though we 
are paying some operational penalties as a result of the Venezuelan 
overflight issue, I would hasten to add that we are continuing to 
conduct the full spectrum of counterdrug air operations, albeit at 
reduced efficiency. Discussions are currently underway with Venezuela 
and we anticipate that the overflight issue will soon be resolved.
    This situation has reinforced the need to attain full operational 
capability and capacity at the FOL in Manta, Ecuador. Given the ability 
to operate the full complement of detection, monitoring, and tracking 
assets from Manta, we would have an immediate workaround to Venezuelan 
overflight restrictions. I should add that these workarounds would be 
equally valuable if other conditions, such as inclement weather 
precluded or restricted operations from a single FOL. For these and 
other reasons it is essential that our plan for enhancement of the FOL 
network be fully funded.

                                   - 

</pre></body></html>
